<html>
<title> - IS AMERICA'S OVERSEAS BROADCASTING UNDERMINING OUR NATIONAL INTEREST AND THE FIGHT AGAINST TYRANNICAL REGIMES?</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]


 
                   IS AMERICA'S OVERSEAS BROADCASTING 
                 UNDERMINING OUR NATIONAL INTEREST AND 
                 THE FIGHT AGAINST TYRANNICAL REGIMES? 

=======================================================================

                                HEARING

                               BEFORE THE

              SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 6, 2011

                               __________

                           Serial No. 112-13

                               __________

        Printed for the use of the Committee on Foreign Affairs


 Available via the World Wide Web: http://www.foreignaffairs.house.gov/


                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

65-628 PDF                       WASHINGTON : 2011 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 

























                      COMMITTEE ON FOREIGN AFFAIRS

                 ILEANA ROS-LEHTINEN, Florida, Chairman
CHRISTOPHER H. SMITH, New Jersey     HOWARD L. BERMAN, California
DAN BURTON, Indiana                  GARY L. ACKERMAN, New York
ELTON GALLEGLY, California           ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
DONALD A. MANZULLO, Illinois         DONALD M. PAYNE, New Jersey
EDWARD R. ROYCE, California          BRAD SHERMAN, California
STEVE CHABOT, Ohio                   ELIOT L. ENGEL, New York
RON PAUL, Texas                      GREGORY W. MEEKS, New York
MIKE PENCE, Indiana                  RUSS CARNAHAN, Missouri
JOE WILSON, South Carolina           ALBIO SIRES, New Jersey
CONNIE MACK, Florida                 GERALD E. CONNOLLY, Virginia
JEFF FORTENBERRY, Nebraska           THEODORE E. DEUTCH, Florida
MICHAEL T. McCAUL, Texas             DENNIS CARDOZA, California
TED POE, Texas                       BEN CHANDLER, Kentucky
GUS M. BILIRAKIS, Florida            BRIAN HIGGINS, New York
JEAN SCHMIDT, Ohio                   ALLYSON SCHWARTZ, Pennsylvania
BILL JOHNSON, Ohio                   CHRISTOPHER S. MURPHY, Connecticut
DAVID RIVERA, Florida                FREDERICA WILSON, Florida
MIKE KELLY, Pennsylvania             KAREN BASS, California
TIM GRIFFIN, Arkansas                WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina
ANN MARIE BUERKLE, New York
RENEE ELLMERS, North Carolina
VACANT
                   Yleem D.S. Poblete, Staff Director
             Richard J. Kessler, Democratic Staff Director
                                 ------                                

              Subcommittee on Oversight and Investigations

                 DANA ROHRABACHER, California, Chairman
MIKE KELLY, Pennsylvania             RUSS CARNAHAN, Missouri
RON PAUL, Texas                      DAVID CICILLINE, Rhode Island
TED POE, Texas                       KAREN BASS, California
DAVID RIVERA, Florida
























                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable S. Enders Wimbush, Board Member, Broadcasting Board 
  of Governors...................................................     6
Ms. Jennifer Park Stout, Deputy Assistant Secretary of State, 
  Bureau of East Asian and Pacific Affairs, U.S. Department of 
  State..........................................................    19
Mr. Philo L. Dibble, Deputy Assistant Secretary of State, Bureau 
  of Near Eastern Affairs, U.S. Department of State..............    25
Mr. Amir Fakhravar, general secretary, Confederation of Iranian 
  Students.......................................................    31
Shiyu Zhou, Ph.D., vice president, New Tang Dynasty Television...    38
John Lenczowski, Ph.D., president, Institute of World Politics...    43
Mr. Robert Reilly, former director, Voice of America.............    55

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable S. Enders Wimbush: Prepared statement..............     8
Ms. Jennifer Park Stout: Prepared statement......................    22
Mr. Philo L. Dibble: Prepared statement..........................    27
Mr. Amir Fakhravar: Prepared statement...........................    34
Shiyu Zhou, Ph.D.: Prepared statement............................    40
John Lenczowski, Ph.D.: Prepared statement.......................    46

                                APPENDIX

Hearing notice...................................................    78
Hearing minutes..................................................    80
Mr. Robert Reilly: Prepared statement and material submitted for 
  the record.....................................................    81


 IS AMERICA'S OVERSEAS BROADCASTING UNDERMINING OUR NATIONAL INTEREST 
               AND THE FIGHT AGAINST TYRANNICAL REGIMES?

                              ----------                              


                        WEDNESDAY, APRIL 6, 2011

                  House of Representatives,
      Subcommittee on Oversight and Investigations,
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:50 p.m., in 
room 2200, Rayburn House Office Building, Hon. Dana Rohrabacher 
(chairman of the subcommittee) presiding.
    Mr. Rohrabacher. Good morning. Except it is not morning. 
Good afternoon, everyone. And I want to thank the ranking 
member, who isn't here, and he will be here, and I will thank 
him when he gets here, and the other members of the 
subcommittee who have joined us here. And I also want to thank 
the witnesses for coming today.
    I have called this hearing to investigate one of the 
greatest failures in recent American foreign policy, and that 
is to define and follow a strategic communications strategy. As 
I was going through my background, when I said I worked at the 
White House, obviously most of you know I was one of President 
Reagan's speech writers. And a communications strategy--I was 
actually on the scene to witness Reagan change the world.
    Today I would like to talk about this, a strategic and lack 
of, perhaps, a strategic communication strategy, and I would 
like to talk about this in the context of two of America's most 
dangerous enemies, Iran and Communist China. First and 
foremost, American strategic--Russ, come right on. Sorry I 
started without you, but we did wait for you. Honest we did.
    First and foremost, American strategic communications and 
public diplomacy should seek to promote the national interests 
of the United States through informing and influencing foreign 
audiences. This is often referred to as the war of ideas. The 
role and responsibilities of the Broadcasting Board of 
Governors, that is the BBG, is not only journalism. I was a 
journalist before. While I was doing all those crazy things, I 
was earning a living being a journalist. That is not the only 
job for the Broadcasting Board of Governors. The BBG is 
critical to our national security effort, and not just to a 
journalism and a journalistic effort.
    While much is said about how new technology--Internet, 
social networks, Twitter--is bringing the world together and 
empowering the general public, not much is being said about the 
messages being carried along these new information conduits. It 
is often assumed that these messages are being dominated by 
people who believe in freedom and would liberate the country 
from tyranny, yet the dictatorial regimes of Communist China 
and Iran are currently controlling and manipulating the flow of 
information in their countries and about their countries.
    During the Cold War I worked in the White House when 
President Reagan ordered a massive infusion of funds to help 
Radio Free Europe and Radio Liberty. Reagan knew the utility of 
public diplomacy, and he used it artfully. Lech Walesa, leader 
of the Solidarity freedom movement, and later the President of 
Poland, remarked on the value of U.S. Radio broadcasting by 
saying of its importance,<greek-l> quote, deg. ``it cannot be 
described. Would there be Earth without a sun?''<greek-l> end 
of quote. deg.
    Could the BBG's programming today have that same level of 
significance and importance to the modern Lech Walesas of Iran 
and China? Is our programming helping or undermining freedom 
movements in those dictatorships?
    During the Cold War we defined the Soviet Union as the 
enemy, and under Reagan's leadership we set out to defeat it. 
If the Communist Chinese Party is to be defeated without us 
suffering war, not just us but them suffering war, as Reagan 
ended the Cold War without a confrontation, a conflict directly 
between the Soviet Union and the United States, we must have 
the same level of commitment to broadcasting our message and 
the freedom message, and we need to energize public diplomacy.
    Recently it was announced that the Voice of America will 
lay off over half of its Mandarin language broadcasters, a 
reduction of 45 Chinese journalists. The BBG proposes to 
eliminate Voice of America's daily 12-hour Chinese radio and 
television broadcasting next year. This is worrisome. I look 
forward to hearing our administration witnesses address this 
point specifically. Is there more behind this reduction than 
merely saving money? The $8 million saved will do far more to 
weaken our efforts in trying to confront a belligerent and 
dictatorial China than it will to balance our Federal budget, 
that is for sure.
    In Fiscal Year 2012, the BBG has requested over $767 
million. That is an increase from the $758 million that they 
were appropriated in Fiscal Year 2010. I might add, being given 
money this year of all years is no small request. We need to 
make sure that it is worth it because we are in the business of 
cutting down the level of deficit spending. So if we spend 
more, we have got to get more. And the gutting of the VOA's 
China service does not seem to fit into this criteria. At the 
same time, China is spending lavishly. The Chinese regime has 
dished out over $7 billion over the last 2 years on its 
propaganda, this as we are slashing our communications effort.
    I seriously question the wisdom of the BBG's recent 
decision to switch from short-wave radio broadcasting to an 
Internet-based service. This new approach will be much more 
vulnerable to the type of Internet controls and monitoring that 
the Chinese Communist Party has been perfecting for the last 
few years.
    As the U.S. has retreated from short-wave radio, the 
Communist China Radio International has expanded, tripling its 
English broadcasting since 2000 and going from using 150 
frequencies to over 280 frequencies. Obviously short-wave is 
working for someone if they are expanding that way. As we are 
about to lay off over half of VOA's Mandarin language 
workforce, the official propaganda arm of the Chinese Communist 
Party is aggressively expanding and opening an office in 
downtown Manhattan.
    Unfortunately, the problems with U.S. public diplomacy 
extend well beyond China. Promoting democracy in Iran has been 
an official U.S. policy since the Iran Freedom Support Act was 
passed in 2006, though American broadcasts to Iran, of course, 
started much earlier than that date.
    Radio Farda and the VOA's Persian News Network have in the 
past used Iranian Government sources for their reporting. 
Giving air time to the Iranian Government is a misguided effort 
perhaps to have some kind of journalistic balance. Well, the 
American taxpayers are not and should not be funding an effort 
to give a balance to the mullahs' repressive views. This is 
less of a problem for Radio Farda, since they spend the 
majority of their time and resources playing music, not talking 
about issues or informing the Iranian people.
    It is disturbing to learn of the BBG's slowness in 
reporting information about the violence that the Iranian 
mullahs unleashed against the Green movement when it was 
protesting the stealing of Iran's elections back in 2009. And 
so at the same time we are trying to give balance to views, we 
are slow at reporting the type of negative things that they are 
doing. Certainly this is not the kind of record that best 
serves America's national interest.
    Recognizing these problems, I am a strong supporter of U.S. 
diplomacy, and I believe we need more of it and not less of it. 
But it needs to be reformed, and it needs to be energized and 
properly directed. America needs an up-to-date national 
communications strategy that reflects our values, ideals and 
our national interests. U.S. broadcasting must commit itself to 
this.
    Perhaps background checks or more training of BBG employees 
is in order here. We will discuss that. But I am sure--and I am 
sure our distinguished witnesses, will have some ideas how to 
improve U.S. strategic communications, and I am looking forward 
to hearing them.
    To explain the issues today, we have a number of witnesses 
who I will introduce after my ranking member Mr. Carnahan 
proceeds with his opening statement.
    Mr. Carnahan. Thank you, Mr. Chairman. I want to start off 
by congratulating you again on being chairman of the 
subcommittee. I enjoyed working with you on the subcommittee in 
the past and look forward to working with you as ranking member 
in this upcoming session. Also, I know, as you said, that you 
are a strong supporter of U.S. diplomacy to be sure that we are 
doing it in the most effective way, and I join you in that 
commitment. And thank you for holding this hearing.
    Taking a critical look on how we are conducting public 
diplomacy and strategic communications abroad is a great start 
for the subcommittee. Public diplomacy programs are a critical 
and indispensable component of U.S. foreign policy. From 
exchange programs to international broadcasting to strategic 
communications, public diplomacy is not only an effective 
component of U.S. foreign policy, it can and it should also be 
cost-effective.
    I commend Under Secretary of State Judith McHale for her 
new Strategic Framework for Public Diplomacy that she released 
this year. While there are enormous challenges facing how we 
conduct public diplomacy, I would highlight that her pointing 
out the need to reach populations that are underserved by U.S. 
engagement, such as women and young people, is especially 
critical. I held a subcommittee hearing last year on women's 
empowerment in the political process. That hearing showed the 
impact that empowering women can have on increasing stability 
in many countries.
    Regarding the youth population, we need to look no further 
than recent events in the Middle East and North Africa to see 
not only the need to reach this huge group of people, but also 
the great promise it can have, and particularly their use and 
engagement of new social media. I will be especially interested 
to hear about these points from our witnesses today.
    All five of the strategic imperatives laid out in this 
initiative have great merit, but I want to make a few comments 
about the second that seeks to<greek-l>, quote, deg. ``expand 
and strengthen people-to-people relationships.'' The value of 
human interaction has some of the highest impact of our foreign 
policy. One of those is our student exchange programs. Both 
Americans abroad to show others firsthand who we are as a 
country, as well as those coming from other countries here to 
learn American values are invaluable. I was very pleased when 
Secretary Clinton indicated her commitment to these programs 
when she testified before the full committee last month, and I 
will continue to encourage the administration to support these 
types of programs going forward.
    As I have stated before in this subcommittee, my district 
is home to one of the largest Bosnian American populations in 
the country. I often hear from them about the value of U.S. 
broadcasting to Bosnia. Many of them watch Voice of America on 
line or via satellite. This type of programming has enormous 
value, both here and abroad. It continues to reinforce American 
values to diasporas like the Bosnians in my district who stay 
active in their home countries. We need to continue engagement 
in all possible ways. I look forward to hearing about how we 
can continue these efforts in the most effective way.
    Thank you, Mr. Chairman.
    Mr. Rohrabacher. Thank you.
    Our witnesses today, I would ask if you could, if you do, 
if you can, limit your remarks to 5 minutes, and then we will 
put the rest into the record, and we will then proceed to have 
a question-and-answer session.
    With us today we have--and we are a little mixed up because 
I got everybody up here so we could have one session of 
questions. To explain these issues today we have Deputy 
Assistant Secretary of State Jennifer Stout. Pardon me, I could 
not read your thing from here, and you were supposed to be 
there, but that is okay. We will work this out. Jennifer Stout, 
responsible for public diplomacy and public affairs in the 
Bureau of East Asian and Pacific Affairs. Ms. Stout worked here 
on Capitol Hill for over 11 years before going to the State 
Department, and was then, before that, a staffer to Senators 
Biden and Leahy. She holds an M.A. from George Washington 
University.
    And next we have Assistant Secretary for Near Eastern 
Affairs, Philo Dibble, who is a retired senior Foreign Service 
officer--where are you? There. Okay--who has been overseas on 
many overseas assignments, especially the Middle East. He has a 
master's degree from Johns Hopkins University.
    From the Broadcasting Board of Governors we have with us 
Enders Wimbush and Michael Meehan. Of course, Mr. Wimbush is a 
senior vice president at Hudson Institute. And from 1987 to 
1993, he served and did a great job as director of Radio 
Liberty in Munich, Germany. And Mr. Meehan is president of the 
Blue Line Strategic Communications, and over the past two 
decades has served in senior roles for Senators Kerry and Boxer 
in addition to others.
    Then we have with us John Lenczowski, or I should say Dr. 
Lenczowski, one of my very good friends from my years in the 
Reagan White House. John was the Director of European and 
Soviet Affairs at the National Security Council, a man targeted 
by the Soviets, but stood firm. And we were always proud of the 
good work that he was doing there, and a man who I think can at 
the end of his career feel very satisfied that he helped end 
the Cold War. And today he is the founder and president of the 
Institute for World Politics and International Affairs Graduate 
School here in Washington, DC.
    Another friend of mine from the Reagan years, Robert 
Reilly, who was a special assistant to President Ronald Reagan 
and then went on to become director of the Voice of America. 
During the Iraq war he was a senior advisor to the Iraqi 
Ministry of Information and a senior advisor for information 
strategy to the Secretary of Defense.
    And we also have with us Amir--please pronounce it.
    Mr. Fakhravar. Fakhravar.
    Mr. Rohrabacher. Okay. Fakhravar.
    Mr. Fakhravar. That is okay.
    Mr. Rohrabacher. There you go. Can you pronounce 
Rohrabacher?
    And we are very happy to have him with us today. He was a 
writer and journalist inside Iran, who was jailed by the regime 
for opposing their despotic and violent ways. After spending 5 
years in prison, he came to the United States in 2006 and 
founded the Confederation of Iranian Students to work to create 
a free Iran.
    Then we have with us Mr. Shiyu Zhou. There you are. Okay. 
And he is executive vice president of the New Tang Dynasty 
Television, the only U.S.-based, independent Chinese-language 
TV network broadcasting into China. Mr. Zhou is a Ph.D. and 
formerly a computer scientist at the Mathematical Science 
Research Center at Bell Labs.
    I would like to ask the witnesses to summarize for 5 
minutes each. The order will be Mr. Enders Wimbush first, then 
Ms. Stout, then Mr. Dibble, and then the gentleman who I can't 
pronounce his name.
    Mr. Fakhravar. Fakhravar.
    Mr. Rohrabacher. There he is. You are next.
    And then Mr. Zhou. And then Mr. Lenczowski and Mr. Reilly.
    Did I forget anybody? No. Okay.
    So may we start with Mr. Enders Wimbush.

  STATEMENT OF THE HONORABLE S. ENDERS WIMBUSH, BOARD MEMBER, 
                BROADCASTING BOARD OF GOVERNORS

    Mr. Wimbush. Thank you, Mr. Chairman, members of the 
committee. It is a pleasure to be here to discuss something 
that has been part of my professional thinking for my entire 
professional life. I would like to, Mr. Chairman, submit my 
full testimony for the record and proceed with even abbreviated 
remarks.
    Mr. Rohrabacher. Without objection.
    Mr. Wimbush. Thank you.
    The focus today is going to be on Iran and China. I am 
ready to address both issues from the standpoint of the 
Broadcast Board of Governors, but I want to start with a little 
good-news story that has to do with neither, but affects both, 
and that has to do with the recent events in the Middle East.
    Just 2 weeks ago in Tahrir Square, a nascent democratic 
movement that started in Tunisia blossomed on the streets of 
Cairo. Citizens took to the square to air their political 
demands and economic demands and their demand for justice and 
change.
    The Arab-speaking world saw and heard the events unfold 
through reporters from Alhurra Television on the air and on the 
scene 19 hours a day, providing live coverage of these 
historical events. In a flash survey of Cairo and Alexandria 
during the critical events, 25 percent of respondents, 25 
percent of respondents, said they used the station to follow 
the news. These results are comparable to international 
broadcasting's best success stories during the Cold War.
    At the height of the demonstrations, pro-Mubarak 
demonstrators targeted international journalists. They passed 
out fliers on the street naming Alhurra and saying, we are 
going to kick you out of Egypt. Thugs physically ejected 
Alhurra's journalists from their Cairo studio, but the 
journalists immediately found another place, and for a 
significant period of time in Tahrir Square, Alhurra Television 
was the only network in the world with a live feed coming out 
of Tahrir Square. Alhurra is just one of the--one part of the 
global broadcast enterprise that constitutes U.S. international 
broadcasting.
    It was quoted--Alhurra's coverage was quoted around the 
world. The leading Pan-Arab newspaper, Al Hayat, wrote that, 
and I quote, ``Alhurra was distinguished for its live and 
continuous coverage of the protest through its network of 
correspondents in the different European cities.''
    The same news coverage continued in Libya, in Syria, in 
Bahrain and in Yemen. In Libya, a Radio Sawa correspondent, 
part of the Middle East broadcasting network, accompanied the 
rebels as they advanced toward Tripoli. Time.com commented on 
Alhurra's positive coverage exposing Yemenis to ``the support 
of the outside world.''
    On March 27th, in a cooperative transmission effort with 
the Department of Defense, direct broadcasts of Radio Sawa were 
sent into Libya on an FM frequency from Commando Solo, an 
airborne transmission platform provided by the United States 
Air Force. Commando Solo will provide approximately 6 hours per 
day of radio transmission from the aircraft. Prior to this 
breakthrough, Radio Sawa was only available in Libya via the 
Internet streaming or satellite broadcast.
    I cite this, Mr. Chairman, to begin my remarks as a 
reminder to all of us that we have some extremely brave people 
involved in international broadcasting, and they do some 
extremely important things in the national interest.
    In broadcasting to Iran today from the Voice of America's 
Persian News Network and Radio Free Europe/Radio Liberty's 
Radio Farda, the BBG has taken this as one of its highest 
priorities. And I will be happy to discuss both our concern of 
the way things--the way we found things, and what we have done 
to pick things up and to get it back on an even keel.
    The Government of Iran, as we know, does what it can to jam 
both the PNN and the Farda broadcasts and to interfere with 
their Internet sites. PNN broadcasts are jammed on satellite. 
Radio Farda's medium-wave signal has been jammed since shortly 
after its inception. Things haven't always been perfect in 
these places, but these are pretty good measures of 
effectiveness. More recently Radio Farda was the target of a 
denial-of-service attack to swamp its incoming phone lines and 
disrupt calls from its audience.
    In China, as in the case with Iran, BBG broadcasts faced 
substantial transmission hurdles. The BBG is unable to place 
its programming on any media, any media, in China, despite, as 
you pointed out, Mr. Chairman, the Chinese ability to place 
their content on media around the world. We are not able to 
place it on any media in China, and the Chinese Government 
heavily jams our radio broadcasts.
    In spite of this, China's firm control over access to 
information has been increasingly thwarted by the proliferation 
of cell phones and the Internet, and the Internet is 
particularly worrisome to the Chinese and offers opportunities 
for the BBG and other media to reach Chinese citizens.
    Now, I will be happy when I yield in question time to go 
into the specifics of the BBG's realignment to China, but I 
need to make a couple things clear right at the beginning. We 
have not given up short-wave broadcasting to China. The VOA 
will not be broadcasting short-wave to China, but Radio Free 
Asia, which has been assigned the best frequencies and the best 
times, will continue broadcasting short-wave to China. 
Meanwhile, the Voice of America's very substantial resources 
will be focused on the Internet, and when we have time for some 
questions, I will tell you precisely why we decided on going in 
this direction.
    But to get to the point, to get to the bottom line, this is 
a two-prong strategy. It is not the strategy that has been 
widely portrayed in the media, that the United States is going 
out of the short-wave business in China. It is nothing of the 
kind. We are continuing legacy short-wave broadcasts to China 
with one of our most powerful and dynamic short-wave 
broadcasters, and we are reinvesting in the Internet where the 
audience is migrating. And I will be happy to give you facts 
and figures on how that audience is migrating into those areas.
    So in conclusion, my time is up. I am ready to answer 
questions and eager to do so.
    Mr. Rohrabacher. You will get the questions.
    [The prepared statement of Mr. Wimbush follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
    Mr. Rohrabacher. Ms. Stout.

    STATEMENT OF MS. JENNIFER PARK STOUT, DEPUTY ASSISTANT 
 SECRETARY OF STATE, BUREAU OF EAST ASIAN AND PACIFIC AFFAIRS, 
                    U.S. DEPARTMENT OF STATE

    Ms. Stout. Thank you, Mr. Chairman, Ranking Member 
Carnahan. Thank you for the opportunity to be here today and 
testify before you to discuss about our U.S. diplomacy efforts 
in China.
    Before I get into my testimony, though, Mr. Chairman, I 
wanted to thank you very much for the comments you made at the 
outset of this hearing regarding the solidarity and support 
that we are showing our Japanese friends and the Government of 
Japan. On Monday will be the 1-month anniversary of the tragic 
earthquake and tsunami, and so our thoughts are very much still 
with the Japanese as they go through this recovery. So thank 
you for those comments.
    Mr. Rohrabacher. You know what the greatest thing about 
being a Congressman is you can say things that are really 
important like that and that are weighing on your heart, and 
you can express them, and the message might even get through to 
some of the people in Japan. So you didn't need to thank me, 
but I appreciate that. Go ahead.
    Ms. Stout. Thank you very much.
    We at the State Department very much appreciate Congress' 
longstanding interest in what we do to engage and inform and 
influence the Chinese public through a variety of means. In 
this endeavor we do face many hurdles. Within China we function 
in a highly controlled information environment, often with no 
option but to use platforms that are either run by the People's 
Republic of China or censored by the PRC.
    Our challenge, and the one that we believe we are meeting 
with some success, is to build trust and understanding with the 
Chinese public. Although our two governments do not always see 
eye to eye, the United States and China have shared interests, 
as do the Chinese and American people. Our task is to emphasize 
those interests in a way that moves forward the U.S. global 
agenda on trade, rule of law, human rights, regional stability 
and combating terrorism.
    We are unstinting in representing American values and 
sharing examples of our own democratic, transparent and law-
based society. As we work hard to present these in a manner to 
which the Chinese people can relate--and we work hard to 
present these in a manner to which the Chinese people can 
relate rather than in a prescriptive manner that would be as 
poorly received in China as a prescriptive approach from a 
foreign country would be received by the American people. The 
U.S. domestic system and our global approach have resulted in a 
prosperity and a security that are respected around the world, 
and these successes lead our Chinese audiences to draw the 
right conclusions from those examples we present.
    We are, of course, not naive about the challenges we face 
in our public diplomacy efforts in China from a government that 
sometimes blocks access to our messages to an oftentimes 
nationalistic public that has been taught to be weary of 
foreign influence. In our public diplomacy we remain forthright 
about discussing openly the complexity of the bilateral 
relationship and those points on which our two governments 
agree, just as our leaders do. As the President and Secretary 
of State have done, we emphasize to the Chinese public that the 
United States welcomes the rise of a prosperous, stable China 
even as we state honestly our differences over various issues 
and our concerns with certain aspects of PRC policies.
    We have many diplomatic tools in our public diplomacy 
toolbox. The explosive growth of the Internet in China has 
given us new avenues through which to reach out to the Chinese 
public that would have been inconceivable decades ago. Chinese 
bloggers enjoy a certain latitude that state-run television 
stations and newspapers do not, and we have used that trend to 
blog and microblog to reach millions of Chinese readers.
    When President Obama held a town hall with students in 
Shanghai, 55 million Chinese Internet users visited the site. 
Chinese bloggers and microbloggers invited to a book store 
event with Ambassador Huntsman got over 100,000 hits to their 
site within just 2 hours of the event. Web chats with top U.S. 
Government officials often receive tens of millions of hits.
    Our Embassy in Beijing is one of the busiest cultural and 
academic exchange offices in the world. We have more than 200 
Americans and Chinese learning about each other's countries 
every year through Fulbright. We expect to bring 135 Chinese 
professionals, up-and-coming Chinese professionals, to the U.S. 
We fund the translation of U.S. law texts into Chinese for the 
use in Chinese law schools. On the basis of a successful 
opening of an American study center run as a partnership 
between Arizona State University and Sichuan University, we are 
moving forward with other pairings of American and Chinese 
universities to promote American studies on campus.
    The State Department is securing private-sector support 
from many quarters for the 100,000 Strong initiative, which 
will encourage and help facilitate 100,000 U.S. students to 
study in China over the next 4 years. Our EducationUSA advising 
office in Beijing advises the huge and growing number of 
Chinese students who want to study in the United States. The 
nearly 130,000 students from China in the United States is our 
single largest foreign student contingent and represents a 
unique opportunity for the U.S. to influence the next 
generation of Chinese leaders. They are also tuition-paying 
customers who make no small contribution to our economy.
    Before I close, I would just like to reemphasize a point I 
made earlier about the greatest asset of our public diplomacy, 
which is the attractiveness of the United States, including to 
so many in China, due to our power of our example and the 
appeal of our values. So while we do not underestimate the 
challenges that we face in conducting public diplomacy in 
China, I am confident of our continuing progress in that realm 
thanks to the strengths of our society, our form of government, 
the freedoms we enjoy and our culture.
    Though any country's public diplomacy will benefit from 
more resources at the end of the day for public diplomacy to be 
successful, the country itself has to put forth the model that 
others aspire to emulate, and that is certainly true of the 
United States and China. The U.S. public diplomacy mission, 
therefore, is to continue showing the very best of our Nation. 
Chinese citizens can glean from our examples a way to make 
their own society more just. Our efforts to explain U.S. 
policies aim to develop a common understanding that makes our 
countries readier to cooperate with one another on the global 
challenges we both face.
    Mr. Chairman, Ranking Member Carnahan, thank you for 
extending this opportunity to me to testify today, and I look 
forward to responding to your questions.
    Mr. Rohrabacher. Thank you very much for your testimony.
    [The prepared statement of Ms. Stout follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Rohrabacher. And Mr. Dibble.

STATEMENT OF MR. PHILO L. DIBBLE, DEPUTY ASSISTANT SECRETARY OF 
STATE, BUREAU OF NEAR EASTERN AFFAIRS, U.S. DEPARTMENT OF STATE

    Mr. Dibble. Chairman Rohrabacher, Ranking Member Carnahan, 
thank you for this opportunity to discuss the Department of 
State's public diplomacy work on Iran. With your permission, I 
would ask that my written testimony be submitted for the 
record.
    Mr. Rohrabacher. Without objection.
    Mr. Dibble. The United States and Iran have not had 
diplomatic relations since 1980. We do not have an Embassy in 
Tehran. Our diplomats do not have regular contact with their 
Iranian counterparts. We have very few official avenues for 
dialogue, communication, influence or interaction with the 
Iranian people. For that reason, U.S. Government broadcasting 
and public diplomacy activities play a more crucial role for 
our policy on Iran than for virtually any other country.
    The tools we employ to engage the Iranian people include 
broadcasting, social media, the Internet and traditional 
people-to-people educational and cultural exchanges. The 
witnesses from the Broadcasting Board of Governors can speak 
about U.S. broadcasting efforts to Iran, and they have. I would 
like to share with you the Department of State's public 
diplomacy outreach plans and efforts, including how we 
participate in the BBG's programs.
    First, traditional media, meaning radio and television 
broadcasting, play an important role in our efforts. President 
Obama himself began his Presidency with a commitment to change 
the tone of the U.S. relationship with Iran. He did that on 
live television. Since his inauguration the President has 
conveyed this message personally and in a variety of ways, 
including through several New Year's messages directly to the 
Iranian people and to the government, again through broadcast 
means. Despite this increased outreach, the majority of 
Iranians continue to hold unfavorable views of U.S. policies, 
even as they acknowledge and appreciate the President's 
initiatives. And we have seen that the Iranian regime continues 
to reject the President's offer for meaningful dialogue.
    But we cannot rely exclusively on the highest levels of our 
Government to convey all our messages to Iran. Especially since 
the elections of June 2009 and the evidence of popular 
unhappiness that followed, we recognize the importance of 
communicating directly with the Iranian people. Consequently, 
in order to do that and to make clear the support of the United 
States for the changes Iranians wish to see in their 
government, the Department of State created a plan to 
communicate our policy message via interviews by Persian-
speaking U.S. spokespersons.
    Those interviews clearly must include Iranian state-owned 
media. For years private-sector studies have shown that a 
majority of the Iranians, upwards of 80 percent, get their news 
from government-owned media. We are offering to those media 
appearances by U.S. official spokespersons on live Iranian TV 
and radio in Farsi. We hope that by engaging with all aspects 
of Persian-language media, private, Western, Iranian state-
owned and, of course, Radio Farda and VOA Persian, we will 
expand what Iranians hear about U.S. foreign policy and enable 
them to hear messages directly from U.S. sources. This long-
term effort to engage in Persian-language outreach will become 
a part of our messaging strategy for all elements of Iran 
policy.
    Second, I want to discuss briefly exchange programs, which 
have long been a staple of traditional public diplomacy. We 
have found that educational, cultural, sports and science 
exchanges are an effective means to engage Iranians and have 
produced significant results. Exchanges have started the 
process of reestablishing contacts between academic and 
scientific communities and helping reconnect ordinary Iranians 
to the West and to the United States specifically.
    Exchanges over the past year have included, for example, a 
partnership with the National Academy of Sciences, which 
brought two groups of Iranian academics and professionals in 
solar energy and urban transportation to the United States for 
professional exchanges. Because Iran is an earthquake-prone 
country we funded a workshop on seismic risks in urban areas. 
American and regional academics as well as private-sector 
experts discussed practical applications for mitigating the 
impact of a future earthquake.
    Finally, I think I need to refer to new media efforts, 
because I think that is where the future is, even if the 
present is with broadcasting. We recognize the importance of 
new media, especially to rising generations of Iranians. Hence, 
we also use Farsi language in social media sites to communicate 
directly with the Iranian people. The State Department's 
official Farsi language Twitter account at USAdarFarsi, 
launched earlier this year, already has more than 5,000 
followers. Our Farsi-language Facebook page and YouTube channel 
both provide active platforms for engaging Iranian youth.
    We employ native Persian speakers who engage on Internet 
forums and portals to communicate and clarify U.S. Policy to 
Iranian audiences. Two of these individuals were recently 
transferred to the Bureau of Near Eastern Affairs to ensure 
close collaboration with policy makers who are already seeing 
the fruits of this collaboration.
    Finally, I wanted to say a word about the Secretary's 
position on Internet freedom more generally. It is one of her 
greatest priorities, which is why we provide training and tools 
to civil society activists throughout the region to foster 
freedom of expression and the free flow of information on the 
Internet and other communications technology. Current projects 
support countercensorship, virtual communication and peer-to-
peer technologies. The State Department is exploring means with 
the interagency and allies to combat cyber vandalism coming 
from Iran under the banner of the Iranian Cyber Army, and 
recent attacks have targeted U.S.-based e-mail servers that are 
used by many Iranians as well as the VOA Persian Web site 
itself.
    Mr. Chairman, we are making use of every tool we can to 
reach out to the Iranian people to explain our policies in 
spite of the restrictions imposed by the government in Tehran, 
and to give the Iranian people the means to communicate with 
one another, and to organize to hold the government accountable 
for its actions. I appreciate the opportunity to discuss these 
questions with the committee and look forward to the 
discussion. Thank you, sir.
    Mr. Rohrabacher. Thank you very much. I am sure there will 
be some questions about that as well.
    [The prepared statement of Mr. Dibble follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Rohrabacher. And Mr. Fakhravar.

      STATEMENT OF MR. AMIR FAKHRAVAR, GENERAL SECRETARY, 
               CONFEDERATION OF IRANIAN STUDENTS

    Mr. Fakhravar. Good. Great. Thank you.
    Good afternoon, honorable Members of Congress, ladies and 
gentlemen. I am honored and delighted to be among members of 
the House Foreign Relations Committee and distinguished guests 
who are testifying today. I don't want to torture everybody 
with my weak English and speak.
    I spent more than 5 years of my life in jail and with a lot 
of torture, and I have the sign of torture in my hand and I 
love it. And after--I am talking today on behalf of the 
Confederation of Iranian Students. The CIS was recognized by 
the Congressional Research Service as one of the most important 
Iranian opposition groups since 2009 until now.
    And I was arrested for the first time when I was 17 because 
of one of my speech in school about Supreme Leader. And I just 
said maybe we don't have that much freedom the Supreme Leader 
is telling us, that is it, and they put me in jail. And then 
for 14 years on and off, I was in jail, the revolutionary 
court, and the law school and medical school.
    In 2005, I escaped from prison, a notorious Iran prison. 
And then for months before coming out of country, I was living 
underground, and I had chance to watch Voice of America and 
Radio Farda. First of all, that was a good feeling to hear some 
real news. And then after a few days I realized that some anti-
American message is coming in the middle of the news. And then 
I realized more and more.
    And after I escape from the country and came here in May 
2006, Senator Tom Coburn invited me to testify on behalf of 
the--in front of the--what is that--Homeland Security 
Committee, U.S. Senate, and that was about the nuclear issues 
in Iran and next step. And I tried to put the spotlight on 
Voice of America and Radio Farda during my testimony. And I 
just mentioned that Voice of America and Radio Farda, they have 
a more potential and the great potential to promote freedom and 
democracy. And that is exactly their mission, the mission of 
Broadcasting Board of Governor and the mission of Voice of 
America, the mission of Radio Free Europe, to promote freedom 
and democracy and to tell the truth about the United States to 
make a better face of United States in the world. It is clear 
that is the mission.
    And I said the Iranian people right now are confused 
because of these type of so-called balanced news. Because when 
the people for years, for more than three decades, they don't 
have any access to other source of media, and they, the 
government, they are brainwashing the people via state media. 
That is not fair to send some type of balanced news, and it is 
not balanced, it is anti-American, and make people confused.
    And then I started to help Senator Tom Coburn. After that 
testimony, the Voice of America and Radio Farda, both they 
boycotted me and entire organization and all of my friends, and 
they didn't let us to talk at all. And they even criticized me 
on air several times.
    And then we helped--me and my organization, we helped 
Senator Tom Coburn, and we reviewed some of the programming, 
and we helped them about monitoring the programs, and we 
collected a lot of facts. And in 2008, September 2008, finally, 
with the help of Senator Tom Coburn, the inspector general 
investigated the Voice of America Persian Service. And thanks 
God that management of Persian Service, they were removed, but 
nothing changed. The same people, they came to the power again, 
and for next 2 years again that was the same problem.
    And then we had briefing on February 23, 2010, in House, 
and the Congressman Trent Franks after briefing told me--asked 
me about the U.S. taxpayers and some type of watchdog on Voice 
of America Persian Service, and I said you don't have anything. 
And then he said, okay, I will write a letter to President 
Obama, and I ask my colleagues to sign this letter. And he send 
this letter with 69 signatures to President Obama. And then 
after maybe 2 months, the second layers of the management of 
Persian Service, they were removed. But the problem was still 
there.
    And then we had several meetings with Governor Enders 
Wimbush. And again, thanks God, he came to the power, and the 
new governors, the Broadcasting Board of Governors, and with 
their great experience, and we could see some hope about the 
future.
    And then we started to talking with the Congressmens, and 
we had several meetings with you, Mr. Chairman, and with 
Congressman Ted Poe, Congressman Ed Royce, and Congressman Ted 
Deutch, and several Congressmen and Senators. And we discussed 
the issue, and we realized the problem is, first, not following 
the BBG and VOA mission by VOA Persian and Radio Farda. They 
changed the mission on their Web site. You can right now look 
at the Voice of America Persian Service, and you can see 
clearly they changed the mission by themselves. And the mission 
on BBG Web site is to promote freedom and democracy, and on the 
Persian Web site is our only duty is to report the news. This 
is not the mission. They changed the mission. And please find, 
Mr. Chairman, who changed this mission and who asked when they 
should follow this one.
    And also, the second problem is broadcasting anti-American 
messages regularly without balance. We will give you, Mr. 
Chairman, a lot of facts and date and document about this with 
the document; and wasting money for unnecessary traveling and 
personal matters.
    Four, nepotism. It is not hard to find a lot of family 
members and friends as an employee of Voice of America. And you 
can find mother and daughter and father, all of them, working 
together. And it is a lot of family business over there. It is 
really easy to find and investigate these things.
    And also favoritism, number 5.
    And 6, lack of background check. Again, give you several 
examples about the people without any background check. They 
came directly from Islamic Republic. They worked for state TV 
in Iran. Ms. Mana Rabeei, last year March 17, 2010, she asked 
Congressman Ed Royce about the sanction of the Revolutionary 
Guard. And she said, why do you want to put sanction on 
Revolutionary Guard; you can't do that because they are 
protecting the Iranian people. And then we realize that 3 days 
after Neda was killed, she produced a video for the state TV in 
Iran, and she was working at that time for the Press TV in 
Iran, and she produced that video to tell the people how much 
the messages are the great people. And it is not hard to just 
Google her name and see who is this lady.
    And lack of oversight and supervision, number 7.
    Eight, misusing the power of media to support the political 
views of its employees.
    Nine, boycotting and even slandering people they don't 
agree with. Our organization is one of the best examples for 
it.
    And 11, not supporting and criticizing the U.S. policy.
    And 12, acting as a political party that shores up those 
with similar points of views and tries to weaken others.
    And 13, misusing VOA to support their----
    Mr. Rohrabacher. Mr. Fakhravar, is that the last one?
    Mr. Fakhravar. I am so sorry. It is the end of it. And you 
know my English is not so good.
    Mr. Rohrabacher. Your English is great.
    Mr. Fakhravar. Just give me 1 more minute.
    Mr. Rohrabacher. You are over. But I do want you to ask you 
to reread one part. What was it you read? The change that took 
place in the mission statement. Could you reread that for me, 
please, and where you found that?
    Mr. Fakhravar. It is on BBG's Web site. You can find the 
mission is to promote freedom and democracy and to enhance 
understanding through multimedia communication of accurate, 
objective, and balanced news, and to tell the truth about the 
United States. And they change it to, our only duty is to 
report the news. You can find it really easy on the top of the 
Persian Web site.
    Mr. Rohrabacher. When did that--report the news--when did 
that change of mission take place?
    Mr. Fakhravar. 6 years ago. And they put this one as a 
mission on the top of their----
    Mr. Rohrabacher. Okay. So 6 years ago it went from 
promoting freedom and democracy to basically report the news.
    Mr. Fakhravar. Only report the news.
    Mr. Rohrabacher. Okay. Got it. All right. Thank you very 
much.
    [The prepared statement of Mr. Fakhravar follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Rohrabacher. We have a couple more witnesses, and then 
we will get to our questions and answers. And I am going to 
have to--Mr. Zhou.

   STATEMENT OF SHIYU ZHOU, PH.D., VICE PRESIDENT, NEW TANG 
                       DYNASTY TELEVISION

    Mr. Zhou. Chairman Rohrabacher, Ranking Member Carnahan and 
members of the committee, thank you for inviting me to join you 
this afternoon.
    Since the mid-1980s when waves of immigrants came abroad 
from China, Beijing had been concerned about communication 
between the overseas Chinese and those on the mainland. Surveys 
have shown that Chinese living outside China still rely heavily 
on Chinese-language media as their information sources. As a 
result, people have seen over the past two decades the 
aggressive efforts made by the Chinese Government to expand the 
global presence of its own media and control the existing 
overseas Chinese media.
    For example, CCTV's Chinese service alone is on 26 
satellites around the world. Eight of them are over North 
America, including the DirecTV and Dish Network satellites. In 
the U.S., CCTV channels are carried by all major cable and 
direct-to-home satellite TV systems in both Chinese and English 
languages. In the meantime, using a vigorous campaign over the 
past two decades to infiltrate and influence third-party 
Chinese media, and at the same time suppress independent voices 
in the Chinese community, the Chinese Government has by and 
large successfully controlled the overseas Chinese-language 
media market and manipulated public opinion among the overseas 
Chinese population.
    But Beijing's propaganda machine would rarely pass up a 
chance to rouse Chinese nationalism, sometimes mixed with anti-
American sentiments. Just months ago the Chinese media under 
Beijing's control have successfully convinced many Chinese 
Americans that the ongoing inflation in China was caused by 
some plots of the U.S. Government, including Federal Reserve's 
QE2, to transfer the U.S. problems to China.
    The Chinese-language media market has become very unique in 
the sense that one can hardly hear a different voice, 
especially on those sensitive issues most challenging to the 
Chinese Government. A free media in Chinese language should 
take up the social responsibility to be an alternative voice 
for the Chinese audience; however, sometimes when I read 
reports on those challenging issues by some U.S. Government-
funded media, the reports repeated in great lengths rhetoric of 
the Chinese Government officials. I doubt people in China take 
great risks to break through the censorship to read or watch 
those reports just to find out what the Chinese Government's 
position is.
    The damage this kind of reporting may cause to the Chinese 
audience could be much greater than that of the Chinese 
Government's own media, since the Chinese audience had hope and 
trust in such supposedly alternative voice.
    Next I will use New Tang Dynasty Television, NTD, as an 
example to speak about the challenges facing independent 
Chinese-language media today. NTD was established in 2001 after 
September 11th by a group of Chinese American media 
professionals, Wall Street investors and people in academia. At 
the time they were disappointed how Chinese-language media 
reported on the terrorist attacks and realized the importance 
of having an American media broadcasting in Chinese language 
that reflects American values and journalistic standards, and 
hence NTD came into being.
    Over the past 9 years, NTD as a nonprofit media has grown 
to become a global television network with reporters in over 50 
cities around the world today and broadcasts globally via 
satellite, cable and the Internet. Just over the Internet 
alone, more than 1 million visitors from mainland visits the 
NTD Web site every month, using Internet anticensorship 
software such as FreeGate and UltraSurf.
    However, NTD's development has necessarily become a threat 
to Beijing's heavy-handed grip on media. Thus, over the years, 
the Chinese Government has launched an aggressive and 
relentless campaign to silence NTD.
    Insiders have revealed that CCTV has made some major U.S. 
cable and satellite TV companies accept its lucrative business 
deals in exchange with the condition that these companies need 
to get CCTV's approval to add any additional Chinese-language 
channel to their broadcast platforms. Its target is NTD. As a 
result, NTD has suffered discrimination by and being excluded 
from many broadcast platforms in the U.S.
    In May 2004, in partnership with Eutelsat, a Paris-based 
satellite company, NTD launched the very first 24/7 uncensored 
Chinese-language satellite broadcast into China. Within a year 
Eutelsat was under Beijing's business pressure and intended to 
drop NTD. Then BBG and the U.S. Congress supported Eutelsat to 
resist Beijing's pressure and brought VOA television service to 
the same satellite used by NTD, which comprised a protection 
umbrella for this open satellite window to China.
    So Eutelsat continued to carry NTD and some other NGO 
broadcasters for 3 more years. However, it was unfortunate that 
in 2008, for some reasons, BBG moved VOA from Eutelsat to a 
Chinese Government-controlled satellite. Then Eutelsat shut 
down the open satellite window 2 months before the Beijing 
Olympics.
    In the 21st century today, the Internet and satellite TV 
have become the two most important high technologies to tear 
down the censorship wall of the closed societies like China. 
According to official surveys, there are hundreds of millions 
of Internet users as well as satellite TV viewers in China. The 
user bases of different technologies in China seem vastly 
different. It would be important that we keep the door open for 
not only the Internet users, but also the satellite TV viewers 
in China to have free access to uncensored information.
    The past experience have shown that without the support of 
the U.S. Government, no satellite companies in the world can 
resist the threat and the lucrative business deals of Chinese 
Communist Government to allow an uncensored TV channel to 
broadcast to China on their satellites.
    It has been proven that BBG's Chinese-language service 
would be able to play another critical role consistent with the 
U.S. national interest and commitment to freedom. It can create 
a protection umbrella on the satellites it uses for China so 
that it allows other U.S. independent Chinese-language 
broadcasters to lease channels on the same satellite to 
broadcast to the same target audience. This by far appears to 
be the only hope to create a protective platform for all 
independent Chinese-language broadcasters to reach the vast 
satellite TV audience in China.
    Thank you.
    Mr. Rohrabacher. Thank you very much.
    [The prepared statement of Mr. Zhou follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    

    Mr. Rohrabacher. We have two more witnesses, and then we 
are going to questions and answers.
    We have been joined by Mr. Rivera from Florida. Thank you 
very much. Also a new Member of the Congress, so we welcome you 
to the committee and to Capitol Hill.
    Our next witness will be Dr. John Lenczowski.

 STATEMENT OF JOHN LENCZOWSKI, PH.D., PRESIDENT, INSTITUTE OF 
                         WORLD POLITICS

    Mr. Lenczowski. Mr. Chairman, Ranking Member Carnahan and 
members of the committee, I am honored to have the opportunity 
to contribute to Congress' deliberations on a matter of vital 
importance to our national security. I would like to begin by 
arguing why Internet broadcasting is so strategic, and then 
make some recommendations concerning current policy. These 
remarks are a summary of my prepared statement, which I would 
like to submit for the record, please.
    Mr. Rohrabacher. So ordered, without objection.
    Mr. Lenczowski. Thank you.
    International broadcasting is such an important instrument 
of U.S. foreign and national security policy that a strong case 
can be made that it played a more strategically decisive role 
in bringing down the Soviet empire than any other instrument of 
American power.
    Broadcasting is the only means by which the U.S. can 
provide unfiltered information to hundreds of millions of 
people around the world who are denied access to a free press 
and to other media. Those tyrannical regimes that control 
information tend to be more aggressive and hostile to U.S. 
vital interests than other kinds of political order. Complete 
control over the media and their message enable such regimes to 
establish political conformity and a psychological sense of 
futile resignation among the people when it comes to resisting 
political repression.
    The rise of the Internet cell phones and other modern media 
has made communication of the truth, particularly among 
resistance forces, more possible than ever before.
    But although broadcasting appears antediluvian in 
comparison, it possesses key properties that remain decisive 
and are even superior to modern digital technologies in a key 
respect: It is able to reach millions of people with 
instantaneous unfiltered information even faster than viral 
communications that remain vulnerable to tyrannical State 
control and manipulation. It remains the only method of 
reaching many large populations in the world and an essential 
compliment to reaching those who do have access to digital 
media.
    Broadcasting combats tyranny's attempts to atomize and 
demoralize society. It connects America with oppressed people. 
It encourages and inspires them, making them feeling as though 
they are not alone. It enables us to have relations with 
millions of people and not just governments.
    If those long-distance relations are well managed, we gain 
sympathizers, allies, and even intelligence sources. And if 
people living in a theater of war like Afghanistan understand 
the motivations underlying the presence of our troops in their 
country, they are less likely to be hostile.
    So what is wrong today? Public diplomacy and international 
broadcasting have suffered from significant neglect at the 
national strategic level. This has resulted in inadequate 
national strategic coordination; funding that is inadequate to 
meet the strategic need; resource allocation among the 
broadcasters that does not adequately reflect national 
strategic priorities; removing entire language services from 
the Voice of America in the absence of serious national 
integrated strategic deliberation and coordination; the 
conflation of the VOA mission with the mission of the freedom 
broadcasters, such as RFE/RL; this conflation has resulted in 
misguided attempts to avoid so-called duplication of, say, a 
Chinese service in the VOA and the Chinese service in Radio 
Free Asia when the two services have distinct and intrinsically 
valuable missions; the failure to protect against the 
penetration of various language services by agents of influence 
from target countries; and the failure to monitor the quality 
and balance of programming to ensure high journalistic 
standards and compatibility with U.S. national interests.
    Unfortunately, these consequences arise when the governance 
of the broadcasters is not part of an integrated national 
strategy. The fact that the Secretary of State is a BBG member 
appears to have little effect on many board decisions. This is 
due to the historic pattern of an almost complete lack of 
attention to broadcasting policy within the State Department. 
Ensuring that broadcast programming serves U.S. foreign policy 
interests is extremely difficult, given the BBG structure, 
which suffers from an absence of truly accountable executive 
power.
    The absence of serious executive responsibility means that 
some of the most vexing challenges that have historically faced 
our international broadcasters have gone unaddressed. Prominent 
among these have been the ideological and factional struggles 
within the various language services. The task of balancing and 
managing such factionalism is a very hard thing. It may be the 
hardest thing in the U.S. Government to manage. But it is made 
all the more difficult by the vulnerability of these language 
services to the penetration by foreign agents of influence, 
whose activities can sabotage huge parts of our broadcasting 
effort.
    Given the many problems faced by these most important of 
national institutions, I believe that the following reforms are 
necessary. And I am going to begin with macro reforms and get a 
little bit more specific.
    Mr. Rohrabacher. Can you summarize those?
    Mr. Lenczowski. Yes. Very quickly, public diplomacy needs 
to be raised to the highest level of national strategic 
attention. I believe we have to create a new U.S. public 
diplomacy agency, which would be much more than an information 
agency. It would comprise all the major public diplomacy 
functions of the government, including the State Department, 
USAID, Peace Corps and BBG. And I believe that 50 percent of 
all nonpolitical ambassadorships should come out of that 
agency, and then you will see a rejiggering of the incentive 
structure in U.S. foreign policy so that the State Department 
will start taking public diplomacy seriously again.
    The services of the BBG should be divided into two 
categories; one under the VOA umbrella and another under the 
freedom broadcasters umbrella. Each would have their own 
director. Radio Sawa and TV Alhurra, for example, should be 
placed under the freedom broadcasters umbrella. And the Arabic 
service, which was shut down in a fit of absence of mind, 
should be restored to the Voice of America. The Chinese service 
should not be gutted at the VOA. It should be preserved and 
strengthened. Disbanding it, in my view, is the height of 
irresponsibility, given the rise of China's power, its 
manipulation of the media that we have just heard, its 
espionage efforts in this country, its military build-up, its 
increasing territorial claims and so on and so forth.
    Then the BBG should cease to have any executive power. It 
should serve the role formerly served by the Board for 
International Broadcasting; namely, it should be a programming 
oversight board. Here is where the bipartisan composition of 
that board can really make a difference. The executive director 
of that board would hire independent language-fluent scholars 
to do systematic program reviews to test for propagandistic 
content and so on and so forth. All broadcast services should 
be subjected to background checks by counterintelligence 
agencies.
    Mr. Rohrabacher. And finally?
    Mr. Lenczowski. Yes. And finally, Congress should consider 
combining all foreign affairs spending with the defense budget 
into a so-called defense and foreign affairs budget so that 
America can fund the nonmilitary elements of our national 
defense at levels commensurate with national strategic needs.
    [The prepared statement of Mr. Lenczowski follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Rohrabacher. Thank you.
    Dr. Lenczowski, it is very difficult for a Ph.D. to get 
this down to 5 minutes.
    But how about Robert Reilly, who has more of a journalistic 
background, can you meet your deadline in 5 minutes today?

   STATEMENT OF MR. ROBERT REILLY, FORMER DIRECTOR, VOICE OF 
                            AMERICA

    Mr. Reilly. Yes. Mr. Chairman, Ranking Member Carnahan, 
members of the committee, thank you very much for this 
opportunity.
    You are not going to get an awful lot of traction with your 
constituents by paying serious attention to these issues. But 
if you get them right, you are going to save American lives. 
And I thank you for the attention you are bringing to this. I 
would like to submit my extended critique of public diplomacy 
for the record.
    Mr. Rohrabacher. Without objection.
    Mr. Reilly. And restrict myself to--at least when I went 
over them last night, they were 5 minutes of remarks with a red 
California Zinfandel. I will try to replicate this, albeit----
    Mr. Rohrabacher. It started 30 seconds ago.
    Mr. Reilly. Indulge me in an imaginative exercise. If we 
were setting up a broadcasting service for the U.S. Government 
from scratch today, we probably would want to focus on the 10 
most important countries and language groups in the world. In 
our hemisphere, say Brazil, the largest country, biggest 
economy; in Eurasia, certainly Russia; to the south, China; to 
the southeast, India; in the Near East, certainly the Arabic 
world. Our mission would be to tell these countries and 
audiences who we are, what we are doing, and why. If we want 
the world to be reasonable, we had better give it our reasons.
    We might, in other words, create the Voice of America, 
whose purpose, by charter, is to do these very things. Now if 
an outside observer looked at what has happened to VOA over the 
last 10 years, he might discern a pattern that broadcasting to 
the largest, most important countries of the world has been 
eliminated. Portuguese to Brazil, gone. Hindi to India, 
eliminated. Arabic to the Arabic world, ended and replaced by a 
pop music station. Russian, eliminated. And now the Chinese 
service is on the block for extinction in all but its Internet 
presence, which is blocked.
    The pattern is clear but the purpose is not. Why have we 
done this to ourselves? The excuse 10 years ago or more was 
that history had ended in the sense that the model of the 
democratic constitutional free market political order stood 
undisputed in its moral authority. But 10 years ago, at the 
price of 3,000 American lives, we found out this was not true.
    Why then are we continuing on this path? Economic 
considerations might be one explanation, but they can't account 
for 10 years of this behavior. The elimination of Chinese VOA 
radio and TV broadcasting in Mandarin will save $8 million but 
lose an audience of at least 6 million. Do we need no longer 
explain ourselves to the world? Do we no longer need to give it 
our reasons?
    Be sure that others are willing to give reasons for us. I 
invite you to the coverage of Chinese state media of U.S. 
policy in Libya today. If that is the way we would like the 
Chinese to learn about what we are doing, we seem to be on that 
path.
    The BBG rebuttal might be that we are keeping Radio Free 
Asia Chinese service, albeit diminished, and the VOA Web site. 
However, the Internet is highly vulnerable, and surrogate radio 
broadcasting, as very valuable as it is in itself, does not 
have the mission of explaining who we are, what we are doing, 
and why we are doing it. One of my predecessors, Geoff Cowan, 
told me that in meeting with foreign ministry officials in 
Beijing, they told him that the first thing they did every 
morning was tune to the Voice of America because they needed to 
know what the United States was thinking. They would not tune 
into RFA to learn that for the very good reason that its 
mission is to tell the Chinese about China, not about us.
    This brings me to the most likely explanation for the 
elimination of VOA's services to the most important countries 
in the world, a loss of the sense of mission. The loss began 
with the end of USIA when USG broadcasting was placed under the 
BBG. As the BBG consists of eight CEOs, it is no wonder that 
confusion ensued. Rome had troubles with only two pro councils. 
Imagine the mess if they had eight. Very importantly, most BBG 
members have been highly accomplished individuals who made 
their fortunes in private sector media. They, therefore, sought 
to replicate their success according to commercial criteria. 
This meant large youth audiences and abandoning markets in 
which such audiences could not be attracted. Who listens came 
to be less important than how many listened or to what.
    The diminished mission became news, not the full service 
radio that VOA offered, which also presented and explained U.S. 
policy, but news. Play music for 40 minutes an hour on Radio 
Sawa, if you must, so long as they listen to the news. After 
all, said the BBG chief of staff in 2008, ``It is not in our 
mandate to influence.'' The new BBG chairman, Mr. Isaacson, 
said in a recent Alhurra broadcast that ``we just want to get 
good news, reliable news, and credible information out.'' 
Reliable news was always part of U.S. broadcasting, but the 
mission was never reduced to just that.
    When the Dalai Lama called the VOA Tibetan service ``the 
bread of the Tibetan people'' and when Aung San Suu Kyi called 
the Burmese service ``the hope of the Burmese people,'' do you 
think they were referring to the news?
    Hope is a theological virtue. It is not engendered by news. 
The Declaration of Independence was not a news release or 
report.
    I think the United States has enduring interests in the 
world. I think we need to explain ourselves in the most 
persuasive way and by the most effective means, particularly to 
those peoples and countries whose futures are going to most 
affect our future. I think we need to begin again to think 
through to whom we should be broadcasting about what and with 
what. I think this needs to be done within the U.S. Government 
in a command structure related to our national security and not 
by an independent part-time board.
    Failure to do this will be paid, I am afraid, in American 
lives. Better to win the war of ideas than have to win a war. 
That is simple economics. Thank you.
    [The prepared statement of Mr. Reilly appears in the 
appendix.]
    Mr. Rohrabacher. Thank you very much.
    And I appreciate all the witnesses today.
    As I said before he got here, Russ, that I would be keeping 
the tradition that we started with what they call ``The Bill 
and Dana Show,'' Bill Delahunt and Dana Rohrabacher, when Bill 
was the chairman. We want people to be able to get to the heart 
of the matter and to ask as many questions as is necessary and 
not to let the 5-minute clock, which we would like to bring it 
under, get in the way of actually seeking answers and getting 
to the proper questions.
    And what I intend to do now is to--because the ranking 
member does have something to do in about a half an hour, I 
thought that we would let him go first into questioning. So you 
may proceed.
    And I am going to let our new freshman take over the chair 
for about 5 minutes, and we will go from there.
    Mr. Carnahan.
    Mr. Carnahan. Thank you, Mr. Chairman.
    Thank you to the panel. You really covered a lot of items 
here, and I want to try to jump into a few follow-up questions. 
Let me start with the last witness first.
    And the chairman mentioned your background, working during 
the 1980s with regard to the former Soviet Union. I wanted you 
to compare the public and cultural diplomacy work that the U.S. 
engaged in then with the work today in Iran in terms of what 
worked, what didn't. You know, where you see similarities, 
where you see differences.
    Mr. Lenczowski. Congressman, I presume you are asking me 
about this because I worked on the Soviet Union.
    Mr. Carnahan. Yes.
    Mr. Lenczowski. I think that it was vitally important 
that--I believe the radios--there were many different public 
diplomacy vehicles with the peoples of the Soviet empire. 
However, many of the traditional instruments, such as 
exchanges, which we tried to do, certain kinds of cooperative 
agreements, visitors programs and so on and so forth were 
extremely limited.
    What was successful about our public diplomacy programs in 
the Cold War was that they helped, first of all, to combat the 
atomization of society. In a society like that, atomization is 
created where nobody can trust anybody else. And this is 
because of the pervasive network of informants, secret police 
and so on and so forth. And so the individual is left alone 
against the all powerful State.
    And what broadcasting did, whether it was news, whether it 
was even music that could uniquely be heard, say, over Radio 
Free Europe rather than, let's say, Warsaw one and Warsaw two 
is that secret listeners who would sometimes risk their lives 
or risk being severely punished for being caught listening 
would hear something like that--a wonderful story is a guy who 
got on a bus in Warsaw and started whistling a song that he 
heard over Radio Free Europe that you couldn't hear anywhere 
else. And then somebody else 10 seconds later started whistling 
with him and somebody else 10 seconds later. Pretty soon, the 
whole bus was whistling it. They all looked at each other. They 
said, we are all secret listeners, and there is more of us than 
there is of them. And they could start establishing 
relationships of trust.
    The radios--when Vaclav Havel came, the first president of 
post-Soviet Czechoslovakia, post-Communist Czechoslovakia, came 
he didn't come to the Department of State to thank them for all 
the negotiations and the arms control agreements. He went to 
the VOA and thanked them for keeping their national flame 
alive. The VOA was giving them history programs that restored 
the national memory that the regime was trying to flush down 
George Orwell's memory hole. And by destroying the national 
memory, they would try to change the national identity in order 
to create their new Soviet man, their new Communist man.
    So, then, the radio supplied alternative ideas. They 
supplied religious programming, real religious programming, 
services of many different faiths. It wasn't a violation of the 
First Amendment to do that. And then they gave real information 
to expose the lies of the regime. And one of the great 
techniques of the dissident movements inside those countries 
was to try to tell the truth one day at a time and not repeat 
any of the official lies of the regime.
    Solzhenitsyn said that when the lie--the daily force 
feeding of the steady diet of lies was the single most 
oppressive thing about life in that type of a political system, 
and that when the lie fastens its claws around your neck, it is 
not only a political act; it is an attack on your very human 
dignity.
    And so these people thirsted for the truth more than they 
thirsted for food or the basics of life. Solzhenitsyn said that 
the power that resides in the airwaves, what we are talking 
about today, to kindle the human spirit is beyond the scope of 
the Western imagination. This is how it can be the bread for 
Tibet, the hope for Burma, and it is the hope for all of these 
people in China. This is a tonic--it is a gift that we give 
these people of incomparable magnitude.
    And I don't remember the numbers today. But when I start 
thinking about economies and saving money in this business, at 
its zenith, the VOA had a budget that was the equivalent cost 
of five F-15 aircraft and that was the time when we were 
ordering 900 F-15s. This is cheap stuff we are talking about. 
Probably the single most cost-effective instrument of American 
national power, especially in dealing with these people.
    When the instantaneity of information was huge, when you 
get a signal into a region, people have incentives to order 
resistance groups. If there is no signal, there is no incentive 
to organize the resistance group. This is because if they know 
they can get an underground line of communication to the 
headquarters of some of our radios, then if there is a strike, 
a civil disturbance or something like that, which is normally 
crushed. But part of the crushing involves cutting off all 
communications.
    This is what happened with the Solidarity Trade Union 
strikes in 1980. They cut down all communications to the city, 
and they said that the hurricane blew down the telephone lines. 
But the Solidarity strikers had an underground line of 
communication to Munich to the RFE/RL headquarters, and within 
a matter of hours, the fact of the strike was broadcast to 
millions of Poles.
    The normal modus operandi is, crush the strike; and then if 
the rest of the people learn about it, they have learned about 
it weeks or months later, and the news is that the strike was 
crushed. But here, the news is, you can join it while it is 
still going. This is a huge threat to the----
    Mr. Carnahan. Thank you for the great historical 
perspective that you bring to that and lessons I think that are 
very valuable in looking at what we are doing right now.
    I wanted to turn to our witness Mr. Wimbush from the BBG to 
talk about what you mentioned, you had explained and that is 
why the shift of resources from VOA to RFA, how much of the 
population do you expect to reach via shortwave radio through 
RFA? And is the trend line that we can expect BBG to defund 
shortwave radio in China and other countries? What can we 
expect?
    Mr. Wimbush. Thank you, Mr. Ranking Member.
    Let me begin answering that by stating that the BBG in 
making this realignment did not plan to make it easier on 
Chinese authorities. In fact, we planned to make it more 
difficult for them. We think the realignment of platforms 
tracks with good common sense, good strategy, and good 
budgeting, and I will tell you why.
    In 2006, 24 percent of Chinese owned and used radios for 
news and information. In 2009, only 8 percent of adults were 
weekly radio listeners. That is a drop of one-half since 2007. 
With regard to shortwave--and the research and surveys we have 
got--these are not just ours. These are from the BBC from 
Deutsche Welle from Radio France International, from other 
radio broadcasters as well. Ownership and use of shortwave 
radio is in dramatic decline everywhere. Now, I am not saying 
we are going out of the shortwave business, and I will come 
back and give you specific examples of that in just a moment. 
The BBG's and others, 2010 showed that only 0.1 percent of 
Chinese listened to the Voice of America in Mandarin. Only 0.4 
percent reported listening to any shortwave broadcast in any 
previous week. Survey results showed hardly any acknowledged of 
listening to an international broadcast.
    But in contrast, the trend for use in the Internet and 
mobile technology is increasing rapidly. China today has the 
largest number of Internet users in the world. The growth of 
mobile technology will offer additional means for content 
delivery to Chinese audiences; 75 percent or more of Chinese 
mobile subscribers are projected to have access to the Internet 
within 5 years. By 2015, more than 550 million people are 
projected to have 3G subscriptions in China.
    From a recent survey by the OpenNet Initiative Citizen 
Lab's report from MIT, it concludes that as of 2008, Chinese 
Internet users had grown 42 percent year over year, 42 percent 
year over year; 90 percent of these have broadband access. 
There are about 600 million cell phone users currently. Here is 
a critical piece: Although the rural-urban divide remains 
substantial, at the end of 2008, rural Internet users, 
according to the MIT survey, made up almost a third of the 
entire online population, a jump of over 60 percent. And this 
was driven by a policy goal that every village has access to 
the telephone and every township has access to the Internet by 
2010.
    Expansion of infrastructure development has given access to 
92 percent of the townships already. Web site registrations 
grew 91.4 percent since 2007. Almost a third participate in 
online chats. If you look at this strategically as somebody who 
is trying to make it more difficult for the Chinese to filter 
the flow of information to their own population, it is not--one 
can debate the merits of different approaches, but the long-
term approach is pretty clear. The Internet, which can be 
filtered, is going to play an increasingly important role. 
Shortwave, which can be totally blocked, is going to play a 
less important role. That is just the way it is going all over 
the world.
    When we announced this realignment, it became almost an 
urban legend that the BBG was proposing to go out of the 
shortwave business. We are not proposing to go out of the 
shortwave business. We have a weekly listenership of about 165 
million; 38 million of those listen in shortwave, some 
exclusively in shortwave. And they are in critical target 
audiences: Burma, Nigeria, Ethiopia, Zimbabwe, North Korea. We 
are not going to touch any of those. We are not going anywhere 
near those.
    The realignment was intended to take advantage, to get 
scarce resources into exploiting this burgeoning digital 
technology as best we can while maintaining our legacy 
shortwave broadcast capabilities to the extent that we feel 
that that is justified. We think that we have got the balance 
about right. I am sure we are going to be debating it a lot 
going forward.
    But the reality is, we are not going out of shortwave in 
China. We are going heavily into digital because that is where 
the audience is and particularly that is where the demographic 
is that we seek to reach.
    And I agree totally with Bob Reilly on this, although I 
would dispute the idea that we are necessarily going to lose 6 
million listeners. That assumes that none of them are going to 
tune in to VOA on the Internet or to Radio Free Asia, which has 
Internet capabilities as well. Thank you.
    Mr. Rohrabacher. I would like to just follow up to that. Is 
it possible for a government to track down who is listening to 
a shortwave broadcast? Is it possible for a government to track 
down someone who is involved in an Internet exchange? I think 
the answer to the first one, I believe, is no. And I believe 
that the answer to the second question is yes, thus what we are 
saying is, we are eliminating the communications channel that 
cannot be traced, and we are depending on the channel that can 
be traced.
    Mr. Wimbush. Thank you, Mr. Chairman.
    I am glad you brought that up because it raises a very 
important point. I think you are probably correct on the first 
part that it is very hard to track who is listening in 
shortwave, if they can receive the shortwave.
    However, it is not always the case that you can track who 
is listening on the Internet. One of the BBG's most important 
efforts here is in the anti-Internet circumvention 
technologies, which we are deeply involved in. This is a 
network of proxy servers, which obliterates the identification.
    Mr. Rohrabacher. All right. Well, let me yield one more 
question to my ranking member. But let's just note I am on the 
Science Committee, and one of the things I know about is the 
Chinese are investing heavily in how to track people on the 
Internet and some of our Internet CEOs have shown their 
dedication to democracy by helping them out.
    Mr. Carnahan.
    Mr. Carnahan. My last question I wanted to direct to Deputy 
Assistant Secretaries Stout and Dibble and to really follow up 
on this very issue with regard to Internet censorship by both 
the Iranian and the Chinese Governments. I would like you to 
talk about the most effective form of public diplomacy in your 
respective regions and also what steps are being taken to 
counter some of this Internet censorship.
    Mr. Dibble. I will start, if it is okay. Thank you for your 
question.
    First, with respect to Internet censorship, this takes us 
from the issue of public diplomacy and public communication 
into I think an area the chairman referred to earlier, namely 
support for freedom and democracy in, in my case, Iran. It is 
absolutely true that the Iranian authorities make enormous 
efforts and have developed sophisticated means to try and find 
out first to block access to Internet sites, find out who is 
visiting and to interfere with the ability of average Iranians 
to use the Internet to communicate with one another and to 
organize.
    The State Department is investing heavily itself in ways to 
combat that. One of those is the kind of circumvention 
technology that Mr. Wimbush mentioned. But it is also important 
that, as the chairman pointed out, to recognize that people who 
use the Internet can be tracked. Therefore, they need not just 
the ability to access certain Web sites, but they need the 
ability to protect themselves as they do that, and they need 
the ability to hide, essentially, whatever they have downloaded 
from the authorities who may be seeking it.
    It is that kind of not just technology but training in 
security practices and other similar aspects of the portfolio 
that the State Department is working on. So that is sort of 
part of an answer to the first part of your question.
    On the effective form of public diplomacy, I think we need 
all of them, certainly with respect to Iran. We need to be able 
to get our message across. We need to say, as Mr. Reilly 
pointed out, what we stand for, what we are trying to do, how 
we are trying to do it, what our objectives are.
    We need to be able to demonstrate to the Iranian people 
that we are not the great Satan, that there is value in people-
to-people exchanges between the United States and Iran and 
that, for that reason, they need not to trust what the 
government says about U.S. policies, at least begin to sell 
some doubts about that.
    And I think what we also need to do in order to accomplish 
the objectives of Iran Freedom Support Act is to enhance the 
ability of Iranians in Iran to reach out, not just to access 
information but also to reach each other and to organize. I 
think that is one of the lessons of Tahrir Square was the value 
of the kind of technologies that the Egyptians used to 
mobilize. That would be my answer.
    Mr. Carnahan. And Ms. Stout.
    Ms. Stout. Thank you, Congressman.
    I would associate myself closely with my colleague's 
comments regarding Internet freedom and the Internet 
circumvention technologies that the State Department has been 
looking at and supports. With respect to public diplomacy in 
China, our public diplomacy mission in China is our largest and 
most robust. In terms of what is most effective, obviously, we 
are dealing with, you know, an environment where we have 
certain restrictions that we need to be mindful of. So, 
therefore, our communication directly with the Chinese public 
is, I would say, our most vital goal. We do so in a variety of 
ways. The State Department and the Embassy run a number of 
microblogs, Twitter feeds, that communicate with the Chinese 
people through the social media platforms that we have in 
indigenous Chinese languages.
    We have over 400,000 Chinese followers on those blogs and 
those Twitter feeds. That is our way of communicating directly 
with the Chinese people about our values, our goals and our 
U.S. policy interests.
    In addition to that, we have, as I mentioned in my 
testimony, a number of other programs that our mission in China 
is actively engaged in. The 100,000 Strong program represents a 
desire to correct a major imbalance in terms of the number of 
U.S. students we are sending over to China. We would like our 
next generation of leaders here in the United States to have a 
better understanding of Chinese language and culture so that 
they can come back here and be more competitive in their 
futures.
    We have a very robust speakers program that goes and 
supports both the U.S. Government nonprofit private-sector 
individuals to go to China, not just the urban centers but 
outside into the rural centers, and promote democracy, civil 
society, human rights, corporate social responsibility, a 
number of things. And we feel that those are all elements of a 
very strong public diplomacy program.
    Mr. Carnahan. Thank you all very much.
    Mr. Rohrabacher. And thank you, Mr. Carnahan.
    And I know that, at some moment, you are going to have to 
sneak out because you have another meeting, but we appreciate 
your participation. I have got a few areas to cover, and I 
don't know if Mr. Rivera will be coming back, and so we will 
make sure he gets a chance to ask some questions as well.
    There are a number of issues that we need to discuss. Mr. 
Zhou, am I pronouncing it correctly?
    Mr. Zhou. It is more like ``Joe.''
    Mr. Rohrabacher. I am sorry. I really have trouble with 
these. With a name like ``Rohrabacher,'' an American name like 
that.
    Mr. Zhou, did I hear you right that you are saying that the 
BBG uses a Chinese Government satellite?
    Mr. Zhou. It is a satellite that is controlled by the 
Chinese Government because China has the biggest share of that 
satellite, and it is based in Hong Kong.
    Mr. Rohrabacher. It is made in Hong Kong. Now is that 
correct?
    Mr. Wimbush. It is a satellite owned by an international 
consortium of which the Chinese Government has a piece.
    Mr. Rohrabacher. What kind of piece?
    Mr. Wimbush. Not all of it, I can tell you that.
    Mr. Rohrabacher. I didn't say all of it. All you need is 51 
percent, and that makes you, you own the pie. And of course, 
some of the companies in Hong Kong that probably own the other 
part of the pie rather than just the Chinese Government may, 
well, be sympathetic, let's say, to the regime. It sounds like 
to me that if we are relying on that satellite, that is going 
to make jamming easier and perhaps even the identification of 
opposition easier, certainly easier than shortwave. Go ahead.
    Mr. Wimbush. Mr. Chairman to my knowledge, that satellite 
has not been jammed. One of the things that makes it harder to 
jam for the Chinese is that General Electric and others are 
part of the consortium. I mean, it is not total immunity.
    Mr. Rohrabacher. I have got you. But I will have to admit, 
I have been so impressed with America's CEOs' commitment to 
democracy over my career. They have just rejected signing any 
agreements with tyrants. You know, I remember when IBM rejected 
their opportunity to deal with Adolf Hitler. And I remember 
during the 1960s and 1970s, how our businessmen would refuse to 
sell commodities to Russia when they were indeed--hell, I 
remember all those things.
    Oh, wait a minute. I am wrong. I was wrong about--my memory 
must be slipping. The CEOs actually made deals with dictatorial 
regimes before. Okay. Enough of that.
    Let's go into a little bit about China, and then we will do 
a little bit about Iran. Let me suggest that I am a free 
trader, which always disturbs people. But my motto is free 
trade between free people. And what I think we have with China 
is a one-way free trade, but we also have, consistent with 
that, a one-way free information.
    Do you recognize this paper? This is published by the 
Communist Party of China. It is distributed widely. I think it 
comes to every one of our governmental offices. Do we have a 
similar publication that goes to the people who are in the 
Chinese Government?
    Mr. Wimbush. Thank you, Mr. Chairman.
    Point very well taken. The Voice of America, Radio Free 
Asia, whomever is dealing with China, cannot get access to 
China. They won't accredit our journalists. We have a single 
office in Beijing, which is allowed no programming. They won't 
give us visas. We have not a single affiliate broadcast 
relationship in China, which is the way normally you do it. You 
beam something up to a satellite. You bring it down, and you 
rebroad it cast it in F.M. Or A.M., which is the preferred 
method of listening.
    Meanwhile, the Chinese, as you have just pointed out, are 
all over the world. If you think they are big in here and in 
Galveston and in places like that, you should see them in 
Africa. It is a huge investment going into the billions of 
dollars. We are not challenging them with anything comparable 
to that. And even more regrettable in my sense is that we are 
not even challenging them seriously to get our own media access 
to their market.
    Mr. Rohrabacher. There you go. And let me just note that 
this is totally consistent with the other type of negotiations 
that we have with China. You know, we have sent Peewee Herman 
over to do our negotiating when we should have sent Arnold 
Schwarzenegger or somebody. The bottom line is that there are 
negotiations on a number of issues in which we lose. We 
basically accept giving the Chinese dictatorship what it wants. 
I will go back to China in a moment.
    But I would like to ask about Mr. Dibble's point that the 
majority of the Iranian people don't like the United States, is 
that right?
    Mr. Dibble. No. They love us.
    Mr. Rohrabacher. Maybe you could tell us a little bit. Here 
is someone who went to jail there. In Mr. Dibble's world--I am 
sorry. I will let you comment on it. But I am taking it out of 
context. But I seem to remember you saying in your testimony 
that what you had found is that the Iranian people don't like 
the United States.
    Mr. Fakhravar. And maybe the employees of Voice of America 
Persian Service, yes, they don't like America that much. But 
about the Iranian people inside Iran, I am talking about the 
more than 70 percent under the age of 35 and 81 percent under 
the age of 40, they love the United States.
    Mr. Rohrabacher. So we have a huge group of young people 
who would be susceptible to our freedom message. And maybe, Mr. 
Dibble, you could tell me why it is important that we broadcast 
to those young people and put the Mullahs on to explain their 
own position.
    Mr. Dibble. Let me first correct what is clearly a 
misimpression. What I said was that they don't like U.S. 
policies, not that they don't like the U.S.
    In fact, it is sort of a common place in Iran policy 
circles has that Iran is the one country in the Middle East 
where the people like us better than the government.
    Mr. Rohrabacher. Well, let me note for the record that our 
student leader here from Iran is shaking his head ``no.'' But 
we will go right ahead.
    Mr. Dibble. In any case, I think it is important for us to 
broadcast to the younger generation in Iran because they--one, 
it is the preferred means of getting news.
    Mr. Rohrabacher. Right. And so how is us putting the 
Mullahs directly on with them, how is that going to help us get 
our message across?
    Mr. Dibble. What we are proposing is not to put the Mullahs 
on.
    Mr. Rohrabacher. Well, the Mullah spokesman on.
    Mr. Dibble. To put our U.S. Government Persian-speaking 
spokespeople onto Iranian media.
    Mr. Rohrabacher. Okay. But you are not suggesting that we 
have a spokesmen for the Mullahs being covered by our 
broadcasting?
    Mr. Dibble. No, not at all. We are proposing to have our 
guy----
    Mr. Rohrabacher. Okay. Fine. I have heard criticism of that 
in the past. So that isn't happening.
    Mr. Dibble. Certainly not in our plans.
    Mr. Rohrabacher. Not what?
    Mr. Dibble. It is not in our plans to do that. Our plan is 
to put our guys----
    Mr. Rohrabacher. But is it happening now? It is not in our 
plans to do something.
    Mr. Dibble. Not that I am aware of.
    Mr. Rohrabacher. Okay. Is anyone on the panel aware that we 
have put the Mullah spokesman on? Because some people had come 
to me with that charge.
    Mr. Fakhravar. On Voice of America Persian Service, yes. 
Sometimes there are some people from the inside government they 
came to speak, and they had a super bad attitude with the host 
and anchors, and it happened.
    Mr. Rohrabacher. Okay. And to your knowledge, it is just 
not a policy, but that just happened once or twice?
    Mr. Dibble. As far as I know, yes.
    Mr. Fakhravar. But it is not bad, Mr. Chairman. It can be. 
But let us to have the ability to talk with them and make them 
some balance. Maybe something. But it is not fair to boycott 
the part, that it is the side of people and just give the other 
part to speak.
    Mr. Rohrabacher. Okay.
    Mr. Dibble and Ms. Stout, is it your position that the 
conflict between our countries is based on a misunderstanding 
of our cultures of each other? Or that it is based on the fact 
that the Chinese Government is the worst human rights abuser in 
the world and it continues to put religious believers in jail 
and murdering them, could that have something to do with the 
fact--their basic value of their government political value 
rather than all the other values of our cultural values?
    From listening to your testimony, you seem to be saying 
that it is a misunderstanding of their culture. And let's have 
a sports exchange. And you know Hitler had that really good. I 
remember all these videos of, what, the 1936 Olympics, was it? 
Is that your position, that we are talking about a 
misunderstanding of culture?
    Ms. Stout. No, sir. With respect to our relationship with 
the People's Republic of China, I think what I was trying to 
say in my testimony was, in our communications directly with 
the Chinese people, we would like to build a better 
understanding of our values, of our way of life, of our 
promotion of democracy. This is between the U.S. Government and 
the people of China.
    I do not dispute at all you know our--in terms of the human 
rights abuses that the Government of China has engaged in, we 
have been quite vocal about our concern. We raise our concerns 
at the highest levels with the forced disappearances, the 
arrests, the treatment of our journalists, people who come out 
and speak up against repression. We have been very open and 
candid with our Chinese interlocutors about this.
    We do not hide the fact that this continues to be an 
irritant in our relationship.
    Mr. Dibble. And all the more true in the case of Iran.
    This is not a question of cultural misunderstanding. We are 
not shy at all about criticizing Iran's human rights record, 
and we have any number of strategic disagreements, disputes, 
hostilities with respect to Iran.
    Mr. Rohrabacher. Uh-huh.
    Mr. Dibble. We do have an interest in ensuring that the 
Iranian people continue to look to the United States as a 
repository of the values that they have as distinct from their 
own government. And I think much of our public diplomacy is 
aimed at fostering that feeling. And to the extent that my 
friend at the end of the table is correct, we have been 
successful.
    Mr. Rohrabacher. Okay. Well, let me ask someone who used to 
be director of Voice of America, Mr. Reilly, his reaction to 
what has been said, specifically in terms of China.
    Mr. Reilly. Well, to China, I would like to--you held up a 
Communist Party publication. I would like to quote from one, 
too. May I? It is the Global Times, published by the People's 
Daily. And this is the reaction to the elimination of the VOA 
TV and radio broadcasting service: ``The cut demonstrates a 
blow to the ideological campaign that certain countries have 
waged for over half a century. Representative Dana 
Rohrabacher----''
    Mr. Rohrabacher. Uh-oh.
    Mr. Reilly [continuing]. ``California Republican whined 
that the U.S. is cowing before China.'' And you are quoted, Mr. 
Chairman, as saying, ``The Chinese people are our greatest 
allies, and the free flow of information is our greatest 
weapon,'' with which I totally agree.
    The article ends saying, ``Their Chinese service is coming 
to a historical end with their mission unfinished.''
    At least I agree with that latter part. If I may respond to 
a couple of things that my friend Enders Wimbush said, a person 
whom I respect greatly. I don't think we should be faced with 
an either/or in broadcasting platforms.
    If we see U.S. broadcasting as a national security asset, 
it requires redundancy. If you can't reach them one way, you 
need to be able to reach them another. The Internet in China is 
policed by hundreds of thousands of Chinese police and other 
hundreds of thousands of Internet bloggers who write on behalf 
of the government or the party. In 2009, in Xinjiang province, 
the Chinese Government shut the Internet down completely for a 
month, and they also eliminated international telephone service 
for that month.
    Shortwave broadcasting, I would dispute, despite the 
enormous expense of jamming it on the coastal areas nonetheless 
does get through. There are almost 1 billion people in China 
without the Internet today. And if the choice were, we have to 
get rid of one of these services, Radio Free Asia or the Voice 
of America, why would you choose the service with the largest 
audience and the service that is obligated to present who the 
United States is, what it is doing, and the reasons for it?
    Mr. Rohrabacher. Well, Mr. Wimbush's argument is that it is 
the most effective way to do it. And we will let him express 
that and then Mr. Lenczowski will jump in.
    Mr. Wimbush. With respect to my good friend Bob Reilly, who 
is the smartest intellectual on public diplomacy anywhere and 
the very best, and I seldom have a disagreement with him. But 
when you are talking about the most popular versus the less 
popular and the numbers are 0.1 percent and 0.3 or 0.4 percent, 
there is not a whole lot to choose between them.
    I personally like the idea of getting Radio Free Asia onto 
the shortwave in prime times on the best frequencies because I 
came out of a surrogate service--surrogate radio, and I know 
how powerful those can be.
    Clearly not everybody is going to get everything. And I 
agree with Bob entirely. It is not an either/or situation, but 
we haven't proposed an either/or situation. We have proposed a 
two-pronged situation. Can it be recalibrated? Can it be 
adjusted? Yes. And it almost certainly will be. But it is 
headed in the direction that the listenership is headed.
    Mr. Rohrabacher. Dr. Lenczowski.
    Mr. Lenczowski. Thank you, Mr. Chairman.
    I wanted to add one point about the relationship between 
our overall diplomatic approach to a place like China or Iran 
and our very specific public diplomacy programs. I think that 
the normal public diplomacy programs of the kind that Deputy 
Assistant Secretary Stout has described are very useful in 
order to try to promote American values.
    But I also believe that when people are feeling oppressed 
and when you have a country that has now had, as I understand 
it, somewhere around 75,000 civil disturbances within the last 
year or so throughout the country, people who feel oppressed 
need to have some kind of sense of solidarity with those who 
are free and who might be sympathetic with them. I would 
venture to say, without the intent of embarrassing you in your 
old role as a speechwriter for President Reagan, that 
Presidential rhetoric was an enormous weapon of public 
diplomacy in the Cold War and is highly relevant today to our 
relations with tyrannical governments like the Chinese and the 
Iranians. And this means our national leaders have to stop 
censoring themselves with regards to the human rights 
violations, the massive espionage operations, over 25,000 
Chinese intelligence assets in the United States today, the 
huge military build-up, you know, the continued existence of 
the Laogai and all of these other things. And it was when 
President Reagan started saying the truth about that they would 
lie, that they would steal, they would you know commit any 
crime to further the goals of communism, there is a lot that 
American national leaders could be saying about China and could 
certainly threaten to say in the course of trying to modulate 
the tone of those relations when it comes to other diplomatic 
matters.
    Mr. Rohrabacher. And when the President of the United 
States makes statements, it is a message to everyone else who 
works within the executive branch as to what the policy will 
be.
    I was honored to work with President Reagan who made no 
beans about it what the Communist regime and the Soviet Union 
was all about. And he also, I might add, when he went to China, 
if you read his full speeches--and I helped work on them with 
him--the freedom component is a very important part of his 
speeches in China. I was just recently--when President Hu 
visited, I asked Secretary of State Clinton whether or not the 
issue of forced abortion, where we have millions upon millions 
of women who are being forced to have their unborn babies 
ripped from their bodies--we probably have the most wholesale 
murder in the history of humankind, except maybe for the Jewish 
Holocaust during World War II--was that mentioned at all? I 
said, did that come up? And frankly, there was a promise to get 
back to me and the administration never got back to me with an 
answer, whether or not President Obama even mentioned it. Well, 
when you have a--leadership will filter down, and what I am 
afraid of and let's just say, we will have many of these 
hearings to find out what the real policy of our Government is. 
I think we have had some very good testimony today.
    Mr. Rivera is coming back.
    Mr. Meehan, you have not had a can chance to comment and I 
am going to give you a free hand. Here I am talking about my 
views. And certainly, I want to give you a chance to get on the 
record with yours.
    Mr. Meehan. Thank you, Mr. Chairman.
    I appreciate the opportunity. And we really appreciate at 
the BBG the chance to focus in on things that we can do better 
and things that we can work with you, the Congress, to improve 
that and our colleagues in other government agencies.
    But this BBG Board came about, this new Board--we all got 
there in July. It is a part-time Board. I have a full-time job 
that is something else. But we came here--so does the rest of 
the Board actually, as does vendors.
    And so I wouldn't disagree with some of the comments that 
sort of structural management issues need to be on the table, 
but we are putting them on the table because I don't think that 
Michael Meehan should part-timely run a television station for 
the U.S. Government. I shouldn't. But are there things with the 
kind of expertise that Enders Wimbush brings to the table 
should be part of it? It should.
    You asked at the beginning of your remarks that we have 
asked for additional sums of money. Endersand I cochair the 
budget committee, and we have gone through 75 of the 100 
countries that we do services in now, and by June we will 
finish all of them and ask what can we do better with the U.S. 
taxpayers' dollar. And each time they come back with this 
program works, this one doesn't work, this one should be 
changed.
    Now, I am very sympathetic to the short-wave, but if we 
started the BBG today, and the Congress said, here is $110 
million, would you put $100 million into short-wave and $10 
million into the Internet when there is 235 million users of 
the Internet in China? I am sympathetic about the tracing. But 
the thing that our guys at the BBG do really well with a $1.5 
million budget is figure out how to get around some of the 
government censors in China, in Iran, in Cuba. You name the 
place, they have figured it out. And with that little amount of 
money, they have gotten to--10 million people have gotten 
around these firewalls in these various places.
    The State Department got $5 million recently from the 
Congress they didn't ask for. They sent us $1.4 million. As of 
yesterday the BBG sent out to two companies--450 million people 
use this Internet circumvention proxy for $1.4 million to get 
around the firewall to go to Facebook, yes, but to go to also 
VOA Persia, PNN.
    So I am with you. I don't think it is an either/or, because 
in this changing technologies that we have, we have got to go 
where people are and where they can hear us.
    Mr. Rohrabacher. Thank you very much for that. And I 
appreciate your contribution to this discussion. All of you 
have made this.
    We are going to ask Mr. Rivera to--and then I am going to 
have a very short closing statement. But, Mr. Rivera, you may 
proceed.
    Mr. Rivera. Thank you. Thank you very much, Mr. Chairman. 
Thank you, all of you, for being here.
    I recognize in the audience my former boss from my USIA 
days, U.S. Information Agency. I worked at USIA for 9 years 
under the auspices part of that time of Mr. Dick Lobo, a great 
American, a great patriot, and a great broadcaster.
    I see my good friend Bruce Sherman, and my former colleague 
as well, very nice seeing you.
    A couple of questions related to the international 
broadcasting. And what I recall from my years in international 
public diplomacy is the issue of surrogate broadcasting and the 
surrogate mission. And I wonder--my understanding of the 
surrogate mission, of course, is prioritizing information which 
is denied to the people in indeed what I will call captive 
nations by their captors, by the regime. Is that the--is that 
priority still in play today in the mission with the China 
service and with the Iran service? And I will go to Mr. Meehan 
and Mr. Wimbush. The surrogate mission, is that still a 
priority?
    Mr. Wimbush. Yes. Thank you, Congressman. This is a very 
good question. It is good because the answer to this is not as 
crystal clear as it was 10 years ago or 15 or 20 years ago.
    Let me put it this way: If you drive through almost any 
part of the world today that has got reasonably free media, 
take the Middle East, take Turkey, someplace like that, you can 
go through any small town, look at any apartment building, and 
you will see two or three satellite dishes on every balcony. 
And that means that they are receiving 200 to 400 channels of 
something.
    The idea that most people in the world are deficient in 
information today can't be sustained. There are some places 
where they are totally deficient. Radio Free Asia is a perfect 
example in our network of broadcasters of a totally surrogate 
station. It does the information and the analysis and the 
reporting on local events, local dynamics, local things of 
importance that those people could expect to receive if they 
had a free media of their own. The Office of Cuba Broadcasting 
is another one, although it is beginning to loosen up.
    But what we are beginning to see more and more is a kind of 
hybridization. Some places get tons of information and still 
don't know how to process it very well. So our mission, in a 
very funny sort of way, it comes back and focuses on precisely 
where we were during the Cold War when we were a monopoly of 
outsiders going in. It is creating the analytical context, the 
larger picture, the larger view, which can help people take a 
lot of information that might not mean something and stimulate 
their critical thinking in ways that help them get to the right 
decisions when the decision point comes. There is no better 
example of this right now than the Radio Martis, which are 
under--have been totally renovated and are really doing a 
remarkable job.
    But to give you--I mean, to give you an idea of how complex 
this is, TV Alhurra one thinks of as a global international 
broadcaster. But what do we hear from the Alhurra audience? We 
want you more local. We want you to be surrogate. In this 
respect John Lenczowski is absolutely right. It is part of--it 
is more part of the surrogate mission than it is of the other. 
But it is not totally surrogate.
    We are experimenting right now with creating an all-Egypt 
stream. The station was developed as a Pan-Arab station. We are 
in the process of developing an all-Egypt stream at this point, 
and my guess is that we are going to go more and more in that 
direction toward more local content.
    So the idea of surrogate originally was give them what 
their local media won't give them. Today the idea of surrogate 
is--in many places it is give them what the global media won't 
give them about themselves. So it is a difficult balancing act.
    What this Board is attempting to do with its strategic 
reviews and other things is to get away from the harsh 
definition between official broadcasters like the VOA and 
surrogate broadcasters like the ``radio frees.'' We are trying 
to get audience-focused here. There are some audiences that 
will take one kind of product, and other audiences will take a 
different kind of product, and some that will take something 
that looks a little bit like both.
    But we are--John Lenczowski is absolutely right in pointing 
out we have got a structural problem. We have got a structural 
problem. You won't find--as Michael said, we are prepared to 
put these issues on the table. You won't find a single member 
of this Board who believes that the BBG is a particularly sharp 
instrument and is necessarily the right instrument for this 
highly complex media world with rapidly changing technologies.
    Mr. Rivera. Well, that is going to happen maybe in a more 
concise form. Let me use--in terms of your response, let me use 
the example of OCB Radio and Martin Gutierrez as a template for 
my question. Because in south Florida I can hear Cuban 
Government broadcasts because they make efforts on media Wave 
to broadcast into south Florida. And what Cuban Government 
broadcasts entail are mainly the great production of the 
harvest and the sugar and the great things that are going on in 
Cuba.
    So my question is when it comes to China or Iran from 
Chinese broadcasters or the Iran broadcast services, is it a 
priority to make sure that it is not just what the mullahs are 
saying that is given to the audience, but what they are denied, 
information that is denied to them domestically, domestic 
information, what is going on, what is really going on in Iran 
that the Iranian Government denies them, what is really going 
on in China that the Chinese Government denies them, as well as 
what is going on in the world that the Iranian and Chinese 
Government deny their people? Is that a priority?
    Mr. Meehan. It is a priority. But we are an agency that its 
job is to be communications platform-neutral. And so if you 
gave us a TV station in China, could we produce a great show? 
Yes. If the Cuban Government let our TV show Radio/TV Marti be 
seen, which probably it doesn't--we know it doesn't, very few 
people see it--you would say yes.
    Mr. Rivera. You have other ways of getting information out 
of Iran and China. You don't need to open a TV station in China 
or a TV station in Iran or a TV station in Cuba to know that 
there are political prisoners. You don't need to open stations 
in those countries to know that there is human rights abuses or 
denials of civil liberties, or that there are no free 
elections. You know that without having a physical presence in 
those countries. Conveying that information, is that a priority 
as a surrogate function today in 2011 for these stations?
    Mr. Meehan. Yes. Every day, every day it is a top priority 
to convey that information, that governments that don't allow 
the media to talk to their own people, we--no matter how we can 
figure it out, Internet, radio, short-wave, medium-wave, FM, 
AM, from another country, barring another country, off the top 
of military towers, flying a plane over Libya today, we are 
committed to putting out information that their governments 
won't tell them about.
    Mr. Rivera. So the surrogate function.
    Mr. Meehan. So the surrogate function.
    Mr. Rivera. Now, you have heard--physically you have been 
there listening inside knowing what these stations are 
broadcasting. Do you believe from what you heard that the 
surrogate function of these stations, which I believe is a 
congressional mandate or mission, was a priority of the 
broadcasts?
    Mr. Fakhravar. Without the surging service, the Voice of 
America and Radio Farda, until now, no. But the good things 
that Governor Meehan and Governor Wimbush they say, I agree 
with them, because the day Governor Wimbush was appointed as a 
Broadcasting Board of Governor, he did a great job. We had a 
meeting, and I gave him some suggestion about how the problem 
can be fixed. And he said, we need the watchdog, we need to 
follow people. They can understand Farsi and English fully, and 
they can prove their loyalty first to the United States, and 
through BBG and VOA's mission needs to promote freedom and 
democracy first. And he said yes, and he started that mission.
    And then they forced the Voice of America to have the new 
manager. He is a great guy. He just came last month. He has 
done a great job right now to clean up the Persian cities. We 
need to have these things, to see these type of things in Radio 
Farda, definitely. These two things, and rehiring the all the 
employees that they came during last 5 years, 6 years, to just 
check their background and their application again to see which 
part of these people they lied, and it is a lot.
    But I am sure the Governor Wimbush and the Governor Meehan 
and the new BBG--I am talking about the new BBG because the old 
BBG, I didn't want to say the word terrible, but that was 
terrible. The new one is doing a good job, and we hope--we need 
them to follow the mission to promote freedom and democracy.
    Mr. Rivera. And I agree with that. But the way my 
understanding is, correct me if I am wrong, the way we promote 
freedom and democracy in the national public diplomacy, 
international broadcasting is by providing objective, balanced, 
comprehensive information, news and information. And a 
surrogate function, the objective, balanced, comprehensive 
information, ``balanced'' means providing that information 
denied to that audience by their own government.
    That is how we promote freedom and democracy in terms of 
the broadcasting function. And I want to know, I want to know 
here today, that that surrogate function, providing that 
audience the information and news that is denied to them by 
their own government, that that is a priority of all the 
broadcast services; that at least Voice of America, because 
Voice of America has a different mission, the surrogate 
function; the radio frees, the TV frees, that those have that 
priority.
    Mr. Wimbush. They do have priority, Congressman, absolute 
priority. And I wouldn't even call out the VOA here. The VOA 
does a lot of this, too, a lot of it.
    Mr. Rivera. But it is not country-specific. These are 
country-specific. Information denied to those people in those 
country, China, Iran, tell me that that is--let me know how 
that is a priority.
    Mr. Wimbush. It is. It is a huge priority. This is what 
these radios were put in place to do. They were put in place to 
do precisely this. There are services at the Voice of America 
which one might even think of as surrogate services. The 
Tibetan service, for example, it operates effectively like a 
surrogate service. There are surrogate services at the Radio 
Free Europe, Radio Liberty. OCB is almost entirely a surrogate 
service. RFA, Radio Free Asia, is entirely a surrogate service 
at this point.
    The trick going forward is going be able to get inside this 
larger universe of services, of providers, of capabilities and 
adjust in the direction of audiences that might be changing. 
And this is not an easy thing to do.
    Mr. Rivera. I understand that. I just want to make sure the 
message and the mission is adhering to that principle of 
surrogate service.
    Mr. Wimbush. Absolutely.
    Mr. Rivera. Do I have another moment?
    Mr. Rohrabacher. You sure do. But we will be done here in 
10 minutes, and the chairman needs at least 1.
    Mr. Rivera. Okay. Thank you, Mr. Chairman.
    Audience measurements, are you able to--how do we measure 
audiences in what we continue to call captive audiences like 
China or Iran--let us stick with China and Iran for now.
    Mr. Wimbush. I really am not the person to speak to that. 
But the person who can speak to it is sitting right behind me, 
Bruce Sherman.
    Mr. Rohrabacher. Oh, Bruce, okay.
    Mr. Wimbush. He knows more about this than anybody else at 
the BBG because he runs all of this.
    Mr. Rivera. I would like to know if we can----
    Mr. Rohrabacher. Are you sure he is going to be the only 
witness?
    Mr. Wimbush. But what I would like to suggest, Congressman, 
is if you use a very sweet tone, I will bet you Bruce will come 
up and give you a full briefing on this.
    Mr. Rivera. Will you tell me, we do try to measure 
audience, but I understand it is very difficult to do so.
    Mr. Wimbush. It is not just audience size, but the largest 
contract the BBG lets across anything is its research and 
audience development contract. It is about $50 million per 5 
years, $10 million a year. Measuring audience size is fairly 
simple in a lot of places; it is harder others.
    Mr. Rivera. I want to stick to China and Iran, in closed 
societies.
    Mr. Wimbush. It is harder, it is harder. It can be done.
    Mr. Rivera. Would you say it is imprecise?
    Mr. Wimbush. I will let Bruce discuss measures.
    Mr. Rivera. Well, these are societies that people live in 
fear, so I would suspect it is very imprecise to determine 
audiences in captive nations where countries are living in 
fear. If I go back to the Radio Free Europe, my understanding 
is irrespective of those efforts to measure audiences in these 
countries, we continued to broadcast behind the Iron Curtain 
notwithstanding the fact that we could not necessarily 
determine the audience during the Cold War. And probably today 
as well we cannot determine in China or Iran the audience size. 
Would you agree with that, Mr. Reilly?
    Mr. Reilly. Absolutely.
    Mr. Rivera. Well, then, let me ask you this, because we 
have a colleague of mine who recently issued a dear colleague 
letter saying that Radio/TV Marti should be shut down because 
the audience levels are low. And my recollection is that in a 
closed society where people live in fear of opining on 
anything, like China and Iran and Cuba, you cannot utilize an 
audience survey to justify the continuation of broadcast 
services to these closed societies. And I would like to know 
who would agree with that, Mr. Reilly, Mr. Meehan, Mr. Wimbush?
    Mr. Rohrabacher. Well, if the gentleman would hold just a 
moment. I think the point you are making is that if you live in 
a dictatorship like Cuba, if you get a phone call and say, do 
you listen to Radio Marti----
    Mr. Rivera. You are going to hang up the phone.
    Mr. Meehan. It is enormously imprecise. It is enormously 
difficult to measure. The most recent survey we have attempted 
in China is about 8,600 people. Some of it was done on line 
through a proxy service. It is not completely accurate, and 
that is some of the best data.
    Mr. Rivera. Would you agree not to use that as a measure of 
the worthiness of broadcast services?
    Mr. Meehan. I completely agree with the chairman. Hi, this 
is the government calling. Are you doing something illegal? No. 
You know, you would hang up the phone and go. So, yes, it is 
enormously imprecise, and that is a big challenge.
    Mr. Rivera. Would you agree that it should not be the 
justification of other measurements in justifying broadcast 
services to these closed societies?
    Mr. Reilly. I would, sir. And I would add that the BBG's 
own figures for Voice of America Mandarin had 6 million for TV 
and radio. They themselves say is an underestimate precisely 
because of this problem.
    I think the standard should be not how many are you 
reaching, because you can't find that out, but what is it you 
need to reach them with. And part of it is that vital surrogate 
function you mention.
    By the way, VOA Chinese spends 40 percent of its time, as 
Enders Wimbush indicated, with local Chinese news, but the rest 
of it fulfills the rest of the VOA charter, U.S. policy and 
life and explanation thereof. That is why I think it is a 
terrible mistake to close down that service in favor of the Web 
site that today is completely blocked by the Chinese 
Government.
    Mr. Rivera. I yield back, Mr. Chairman.
    Mr. Rohrabacher. Well, thank you very much.
    One last question, and then I have a closing statement. 
And, Mr. Zhou, we just heard that there is a $50-million 
research budget. And I understand you have been developing some 
kind of software to help people get around the blocks that are 
put in them for receiving, I guess, the Internet or broadcast 
signals. What has been the reaction to that type of product 
that you have developed?
    Mr. Zhou. So I believe the Board of Governors mentioned 
$1.5 million they assigned to break through the firewall system 
was assigned to us to do that. And indeed, the work this 
Internet Freedom Consortium has done is enormous, and it is 
great.
    And now, I just want to also add----
    Mr. Rohrabacher. So you receive support, it is in the 
record, to try to develop a software that is necessary to break 
through these blocks.
    Mr. Zhou. It is to expand the scale of the operation, not 
to develop software. The software has already been developed.
    I want to echo Mr. Rivera's comment on this. The importance 
of the content of the domestic news in those who live in 
repressive regimes, NTD developed a program called China's 
Forbidden News, and that program is among the highest-rated 
programs on the Internet from China. Every day there are tens 
of thousands, maybe sometimes even hundreds of thousands, of 
visitors to that program alone. Indeed people need to know what 
happens around them, and this kind of software in a censorship 
platform indeed plays a critical role to provide such success 
to those people.
    Mr. Rohrabacher. Thank you very much.
    I will be--this is my final statement, and that this has 
been a very interesting afternoon. This is in keeping with the 
tradition that we started, as I say, with Bill Delahunt that we 
really try to be less formal so we can actually get to the 
points and have interaction between the witnesses.
    I would just like to leave you with one story. And you have 
to remember I worked for a guy who taught me all about writing. 
Let me tell you a little story, and Reagan always had a little 
story. Well, this is a little story about when I worked for 
Reagan. It was mentioned about how Reagan did not--by the way, 
he was always saying, ``Be very tough when it comes to policy; 
be very nice and good to people, to other human beings.'' So he 
is tough on the Communist ideology and the policy, but he is 
very good to these people who were not on the other side of the 
table.
    But we all remember his very solid, solid statements 
condemning not just acts, but the nature of communism as being 
evil. And Natan Sharansky in our administration was traded--
Natan Sharansky was a political prisoner in the gulag in the 
worst possible conditions. He was asked to sign a statement 
saying Russia is a democracy, and he could get out. He refused 
to sign that. A real hero of that era.
    And then we ended up trading him. And, John, you might have 
been the guy who arranged the trade, I don't know, but we 
traded Sharansky. We got Sharansky for some Soviet spy. And we 
got the best part of the deal, obviously, and we got a saint 
for someone who was probably working for the worst gang around.
    So Sharansky, when he made his way out of that gulag and 
was free, he came to the West, and he went to the White House. 
One of the first things he did was go to see President Reagan. 
And the speechwriters were all tuned in. And there is a closed-
circuit TV in the White House. And so when people come out of 
the meeting with the President, they meet with members of the 
press, and it is closed-circuit TV to all of our offices.
    So the press asked Sharansky about his meeting with the 
President, and they said, well, what did you tell the 
President? And he said, well, I told the President the most 
important thing was not to tone down his speeches. And, of 
course, the speechwriters, you know, champagne started popping 
and all the rest, and began to celebrate. And they said, well, 
what is that all about? He said, well, in my darkest moments 
when I was in prison, somebody smuggled me a little note that 
said the President of the United States has just called the 
Soviet Union an evil empire, and once I knew that, I had hope, 
and I did not give up and would not give up. And how many other 
Sharanskys throughout the Communist world felt the same way, 
and how did that have an impact on peace and freedom on this 
planet?
    And Reagan was condemned soundly. I mean, he--after using 
the word evil empire, if you remember, they called him 
belligerent and the rest of it.
    Well, the day after this incident Sharansky--there was a 
reception for Sharansky at the Israeli Embassy. And I remember 
he was coming down--I was sort of over in the back, and he was 
coming down these long stairs. He was a real short guy. And I 
found in my life that the bravest people are short and bald. 
They just really are. And so anyway, there he is coming down 
there, and all these people are surrounding him. And all of a 
sudden it sort of opens up like this, and he is sort of looking 
in my direction. He walks right across the room right to me, 
and he looks up at me and says, I understand that you write 
speeches for President Reagan. And I said, yes, I do. And he 
says, I have often wondered who you are.
    And it all comes back to this: There are a lot of people 
who don't know who we are. Our Founding Fathers didn't know who 
we would be, but they know there are good people, there are 
good and decent people on this planet, and we have to affirm 
that for those people who are in desperate situations, and 
through our broadcasting is what it is all about, so thank you 
all very much.
    [Whereupon, at 5:16 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                               Minutes 
                               
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                               
                               Reilly statement & FTR 
                               
                               [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                               

[Note: The rest of the article submitted by Mr. Robert Reilly is not 
reprinted here but is available in committee records or may be accessed 
via the Internet at: http://www.securityaffairs.org/issues/2009/17/
reilly.php (accessed 5/11/11).]

                                 <all>

</pre></body></html>
